                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-SI-13-22                                     Office of Audits                                       March 2013




       Evaluation of Department of State
   Implementation of Executive Order 13526,
    Classified National Security Information




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                                                           United States Departme nt of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office oflnspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended . It is one of a series of audit, inspection, investigative, and special reports prepared by
01G periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment orthe strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                         SENSITIVE BUT UNCLASSIFIED



Acronyms
A/GIS/IPS   Bureau of Administration, Global Information Services, Office of Information
               Programs and Services
DS          Bureau of Diplomatic Security
DSCG        Department of State Classification Guide
FAH         Foreign Affairs Handbook
FAM         Foreign Affairs Manual
FSI         Foreign Service Institute
INR         Bureau of Intelligence and Research
ISOO        National Archives and Records Administration, Information Security Oversight
               Office
OIG         Office of Inspector General
SAS         State Archive System
SF          Standard Form
SMART-C     Classified State Messaging Archive and Retrieval Toolset




                         SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................3

Objectives……. ...............................................................................................................................5

Evaluation Results ..........................................................................................................................6
       Finding A. National Security Information Classification Needs Improvement .................6
       Finding B. The SMART-C 4.2 Application Needs Updating...........................................15
       Finding C. The Self-Inspection Program and the SF-311 Report Need Improvement .....16

List of Recommendations ..............................................................................................................21

Appendices
      A. Scope and Methodology................................................................................................22
      B. Bureau of Administration Response .............................................................................31
      C. Bureau of Diplomatic Security Response .....................................................................46
      D. Foreign Service Institute Response ...............................................................................51
      E. Bureau of Intelligence and Research Response.............................................................54
      F. Bureau of Information Resource Management Response .............................................55
      G. Office of Inspector General Replies to Bureau of Administration Additional
      Comments .........................................................................................................................56

Major Contributors to This Report ................................................................................................62




                                           SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


                                             Executive Summary
        Executive Order 13526, “Classified National Security Information,” was signed by
President Barack Obama on December 29, 2009, and became effective June 27, 2010. The
Executive order prescribes a uniform system for classifying, safeguarding, and declassifying
national security information and embodies the President’s mandate to control the amount and
duration of classification and to share classified information more freely within the executive
branch and with State, local, tribal, and private sector partners. This Executive order applies to
all Federal agencies that originate or handle classified information.

         The Office of Inspector General (OIG), Office of Audits, conducted this evaluation to
fulfill requirements in the Reducing Over-Classification Act,1 enacted October 7, 2010, which
called for Inspectors General (a) to assess whether applicable classification policies, procedures,
rules, and regulations have been adopted, followed, and effectively administered within such
department, agency, or component and (b) to identify policies, procedures, rules, regulations, or
management practices that may be contributing to persistent misclassification of material within
such department, agency, or component.

        OIG found that the Department of State (Department) had generally adopted the
classification policies, procedures, rules, and regulations prescribed by Executive Order 13526.
However, the Bureau of Administration, Global Information Services, Office of Information
Programs and Services (A/GIS/IPS), and the Bureau of Intelligence and Research (INR) had not
effectively followed and administered certain classification policies, procedures, rules, and
regulations prescribed by Executive Order 13526.

        Specifically, OIG reviewed 34 classified documents created in 2011 to assess the
Department’s compliance with the Executive order’s classification standards and found that one
of the 34 documents reviewed was overclassified. The overclassification occurred because the
document preparer copied the markings and the classification level from the original telegram
but the content of the new telegram did not contain any classified information. In addition, the
preparer, when interviewed, stated that she had not taken the Department’s mandatory training.

        In addition to the one document that was overclassified, OIG found that all 34 of the
documents reviewed had marking deficiencies in one or more of the five required document
marking elements. The document marking errors occurred because the Department had not
effectively administered mandatory training for all Department employees with authority to
classify national security information. The order states that classification authority “shall” be
suspended for employees who fail to complete the required training. However, the Department’s
Foreign Affairs Manual2 (FAM) outlines less severe consequences, stating that such employees
are merely “subject to” classification authority suspensions. Without proper training for
employees with classification authority, classified documents, or portions of classified
documents, may be improperly released; the authors of classified documents may be unknown;
and employees may not have all of the information necessary for declassification. In addition,

1
    Pub. L. No. 111-258, 124 Stat. 2648 (2010).
2
    5 FAM 488.1, “Training for Original Classification Authorities and Derivative Classifiers.”
                                                  1
                                     SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

overclassified documents are not available for public release, unnecessarily limiting disclosure
and public access. On September 6, 2012, following the conclusion of OIG’s fieldwork, the
Department issued a worldwide telegram3 to reiterate that training on classification marking is
required for all employees with classification authority.

        OIG also found that the Classified State Messaging Archive and Retrieval Toolset
(SMART-C) 4.2 application, which the Department adopted in 2009 to assist with proper
marking of classified emails and telegrams, further contributed to document marking
discrepancies. In its evaluation of Confidential and Secret emails and telegrams, OIG found that
Department personnel using SMART-C 4.2 were not marking classified emails and telegrams in
accordance with the document marking standards prescribed by Executive Order 13526 because
the SMART-C 4.2 application did not provide the fields necessary to properly mark classified
emails. Specifically, the SMART-C 4.2 application did not have fields for classifiers to enter
their names and positions. In addition, SMART-C 4.2 user instructions were based on the
outdated Department of State Classification Guide (DSCG) 05-01 rather than on the current
guide, DSCG 11-01, which includes the most recent document marking standards. As a result,
until the Bureau of Information Resource Management (IRM) completes installation of SMART-
C 5.5 for all classifiers, document marking discrepancies for emails and telegrams may continue
to occur.

         Further, OIG determined that A/GIS/IPS had established and performed a self-inspection
of its classification program, as required by Executive Order 13526, but the self-inspection did
not include a representative sample of all classified documents within the Department. OIG also
found that A/GIS/IPS significantly overstated classification decisions reported in its FY 2011
Standard Form (SF) 3114 submission to the National Archives and Records Administration,
Information Security Oversight Office (ISOO), which is responsible for policy oversight of the
Government-wide classification system, by as much as 2.4 million. According to A/GIS/IPS
officials, the self-inspection did not include a representative sample of all classified documents
because A/GIS/IPS did not have direct or timely access to Top Secret documents maintained by
other Department bureaus. With respect to the overstated classification decisions reported for
FY 2011, an INR official stated that this overstatement had occurred because he did not review
the ISOO guidance on how to complete the SF-311 and had overestimated the number of
derivative classification decisions made in FY 2011. The overstatement was then provided to
A/GIS/IPS and subsequently reported to ISOO. As a result, the Department’s self-inspection
report is not reliable and is not a true representation of all classification decisions made by the
Department. In addition, since A/GIS/IPS is responsible for submitting the SF-311 report to
ISOO, the overstatement of the number of classification decisions made in FY 2011 led to an
inaccurate reporting that negatively impacted the annual report to the President. Overstatements
distort the volume of classification documents handled by the Department. Knowing the
accurate number of documents helps an agency plan for resources to secure and maintain
classified documents.


3
  2012 STATE 00090900, “Required Training for Classifiers of National Security Information,” telegram, Sept. 6,
2012.
4
  SF-311, “Agency Security Classification Management Program Data.” This form is due November 15 of each
year.
                                               2
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

        OIG offered six recommendations intended to enhance the Department’s classification
program. These recommendations included updating or amending the Foreign Affairs Manual
(FAM) to reflect that classification training is required by the Executive order; updating the
SMART-C application to facilitate compliance with classification standards; and implementing a
methodology to select a representative sample of classified documents for the annual self-
inspection, along with a process to validate SF-311 submissions by Department bureaus.

Management Comments

       In December 2012, OIG provided a draft of this report to the A Bureau, the Bureau of
Diplomatic Security (DS), the Foreign Service Institute (FSI), INR, and IRM. The report’s six
recommendations were addressed to the A Bureau as the primary action office, with each of the
three bureaus and FSI named as a coordinating office for specific recommendations.

        The A Bureau, in its response to the draft report (see Appendix B), suggested that the
action office for Recommendations 1–5 be redirected to other bureaus and concurred “in part”
with Recommendation 6. The A Bureau also questioned the extent to which the audit accurately
captured the purposes of the audit requirement pertaining to the Reducing Over-Classification
Act. The A Bureau also provided additional comments that did not relate directly to the
recommendations ranging from document classification and marking to OIG’s audit sample to
the division of responsibility for implementing Executive Order 13526 (these comments and
OIG’s replies are in Appendix G).

        DS, FSI, INR, and IRM also provided responses to the draft report (see Appendices C–F,
respectively). In some cases, the responses provided by these bureaus conflicted with the
responses provided by the A Bureau. Based on the collective responses to the draft report, OIG
made technical adjustments to the report as appropriate and concluded that the A Bureau should
remain the action office for all six of the report’s recommendations.

        OIG considers Recommendations 1 and 6 resolved, pending further action, and
Recommendations 2–5 unresolved. The bureaus’ responses to the recommendations and OIG’s
replies are presented after each recommendation.

                                                Background
        OIG undertook this evaluation to fulfill requirements in the Reducing Over-Classification
Act,5 which was enacted October 7, 2010. The Act requires the Inspector General of each
Federal department or agency “with an officer or employee who is authorized to make original
classifications” to perform evaluations “of that department or agency . . . to assess whether” the
department or agency had applied and complied with classification policies, procedures, rules,
and regulations. The Act was designed to address the issues highlighted by the National
Commission on the Terrorist Acts Upon the United States6 about overclassification of
information and to promote information sharing across the Federal Government and with State,

5
    Pub. L. No. 111-258, 124 Stat. 2648 (2010).
6
    The Commission is commonly referred to as the 9/11 Commission.
                                                3
                                   SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

local, tribal, and private sector entities. As stated in the Reducing Over-Classification Act,
“Overclassification of information interferes with accurate, actionable, and timely information
sharing, increases the cost of information security, and needlessly limits stakeholder and public
access to information.”7

Reducing Over-Classification Act

        Section 6(b) of the Act requires that the Inspector General of each Federal department or
agency with an officer or employee who is authorized to make original classifications (a) assess
whether applicable classification policies, procedures, rules, and regulations have been adopted,
followed, and effectively administered within such department, agency, or component and (b)
identify policies, procedures, rules, regulations, or management practices that may be
contributing to persistent misclassification of material within such department, agency, or
component. The Act established specific reporting deadlines for the Inspectors General: The
first evaluation is to be completed by September 30, 2013, and the second report is to be
completed by September 30, 2016. The Inspectors General are also required to coordinate with
each other and with ISOO to ensure that evaluations follow a consistent methodology, as
appropriate, that allows for cross-agency comparisons.

Executive Order 13526

President Barack Obama issued Executive Order 13526, “Classified National Security
Information,” on December 29, 2009, which became effective June 27, 2010, to prescribe a
uniform system for classifying, safeguarding, and declassifying national security information. It
also established a monitoring system to ensure compliance with original and derivative
classification policy, declassification of classified material, and safeguarding of national security
information. In addition, the order outlined specific mandatory training requirements for those
with original and derivative classification authority. It also stated that the training must consist
of “classification standards, classification levels, classification authority, classification
categories, duration of classification, identification and markings, classification prohibitions and
limitations, sanctions, and classification challenges.”

The Implementing Directive

        ISOO is responsible for policy oversight of the Government-wide security classification
system. ISOO derives its authorities from Executive Order 13526 and “issues directives
necessary to implement the Order.”8 ISOO published the Implementing Directive for Executive
Order 13526, effective June 25, 2010, in the Code of Federal Regulations.9 To fulfill its
oversight responsibility, ISOO must conduct onsite reviews of agency programs for classifying,
safeguarding, and declassifying national security information. In addition, the senior agency
official is required to report annually to ISOO on the agency’s self-inspection program. Section
2001.60(a) of the ISOO Directive states that senior agency officials “shall establish and maintain
an ongoing agency self-inspection program, which shall include regular reviews of representative
7
  Pub. L. No. 111-258.
8
  32 C.F.R. §§ 2001 and 2003.
9
  Ibid.
                                             4
                                SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

samples of the agency’s original and derivative classification actions.” Agencies also have a
responsibility to annually report to ISOO classification data on their classification information
security programs via the SF-311. This classification data includes the number of original and
derivative classifications and the number of Confidential, Secret, and Top Secret classification
decisions in the agency. The Executive order requires the use of the SF-311, and the data is used
in ISOO’s annual report to the President.

Information Technology Applications Utilized by the Department

        The Microsoft Outlook SMART application, part of the Department’s SMART system, is
used to send emails and telegrams on both OpenNet10 and ClassNet.11 SMART-C is designed to
assist classifiers in marking Confidential and Secret emails and telegrams on ClassNet in
accordance with the Executive order. Each SMART-C email or telegram is required to have a
classification level, such as Confidential or Secret; the classification authority of the individual
making the classification, including name and position; the basis of the classification; and the
duration of the classification. SMART-C is not used by the Department for Top Secret emails or
telegrams.

Department Bureaus Responsible for Implementation of Executive Order 13526

        Within the Department, A/GIS/IPS and DS share responsibility for implementing
Executive Order 13526. A/GIS/IPS is responsible for ensuring compliance for classifying,
declassifying, and marking classified information under the Executive order, as well as for
developing training and guidance on classification and declassification. INR provides
A/GIS/IPS with data on classification decisions, in addition to the data that A/GIS/IPS pulls from
the State Archive System (SAS), as required for the annual SF-311 report to ISOO. DS is
responsible for protecting and safeguarding classified information and special access programs
under the purview of the Secretary of State. Finally, FSI delivers training to the U.S. foreign
affairs community through both classroom and online training, including classification training.
 
                                                 Objectives
        The objectives of this evaluation were to determine whether applicable classification
policies, procedures, rules, and regulations were adopted, followed, and effectively administered
within the Department and to identify policies, procedures, rules, regulations, or management
practices that might contribute to persistent misclassification of material within the Department.




10
   OpenNet is the Department's internal network (intranet), which provides access to Department-specific Web
pages, email, and other resources.
11
   ClassNet is the Department’s worldwide national security information computer network and may carry
information classified at or below the Secret level.
                                               5
                                  SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


                                            Evaluation Results

Finding A. National Security Information Classification Needs Improvement
        OIG found that the Department had generally adopted the classification policies,
procedures, rules, and regulations prescribed by Executive Order 13526. However, A/GIS/IPS
and INR had not effectively followed and administered certain classification policies and
procedures. Specifically, OIG reviewed 34 classified documents created in 2011 to assess the
Department’s compliance with the Executive order’s classification standards and found that one
of the 34 documents reviewed was overclassified. The overclassification occurred because the
document preparer copied the markings and the classification level from the original telegram,
but the content of the new telegram did not contain any classified information. In addition, when
interviewed, the preparer stated that she had not taken the Department’s mandatory training.

        In addition to the one document that was overclassified, OIG found that all 34 of the
documents reviewed had marking deficiencies in one or more of the five required document
marking elements. The document marking errors occurred because the Department had not
effectively administered mandatory training for all Department employees with authority to
classify national security information. The order states that classification authority “shall” be
suspended for employees who fail to complete the required training. However, the FAM12
outlines less severe consequences, stating that such employees are merely “subject to”
classification authority suspensions. Without proper training for employees with classification
authority, classified documents, or portions of classified documents, may be improperly released;
the authors of classified documents may be unknown; and employees may not have all of the
information necessary for declassification. In addition, overclassified documents are not
available for public release, unnecessarily limiting disclosure and public access. On
September 6, 2012, following the conclusion of OIG’s fieldwork, the Department issued a
worldwide telegram13 to reiterate that training on classification marking was required for all
employees with classification authority.

Requirements of Executive Order 13526

        Executive Order 1352614 states that three classification levels may be applied to national
security information: (1) “Top Secret,” the unauthorized disclosure of which could cause
exceptionally grave damage to national security; (2) “Secret,” the unauthorized disclosure of
which could cause serious damage to national security; and (3) “Confidential,” the unauthorized
disclosure of which could cause damage to national security. The Executive order sets forth the
specific conditions that must be met when making classification decisions and outlines the
procedures to properly mark and classify documents. Specifically, section 1.6 requires
identification of the original classification authority by name and position, agency and office of
origin of the original classification authority, appropriate declassification instructions, and a
reason for classification that cites an applicable classification category from those listed in

12
   5 FAM 488.1.
13
   2012 STATE 00090900, telegram, Sept. 6, 2012.
14
   Executive Order 13526, “Classified National Security Information,” sec. 1.2, Dec. 29, 2009.
                                                6
                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

section 1.4 of the Executive order (for example, foreign relations, intelligence activity, and
scientific matters relating to the national security). Each document should also contain the
appropriate portion markings to indicate which sections are classified, at what classification
levels, and which are unclassified.

        In response to the Executive order, ISOO revised and disseminated guidance on marking
classified documents properly in the form of the Marking Classified National Security
Information booklet, 15 dated December 2010. In addition, ISOO developed a document marking
checklist that identifies five required marking elements, which ISOO uses when evaluating
agencies for compliance with classification requirements. Specifically, each originally classified
document must contain the following information:16

         1. Overall Marking—The document includes overall classification markings
            (Confidential, Secret, or Top Secret).
         2. “Derived From” Line—The document includes the “Classified by” line and
            type of document, date of document, subject, and office and agency of origin.
         3. “Classified By” Line—The document cites classification authority by name
            and position or personal identifier.
         4. Duration—The document includes duration of the classification.
         5. Portion Marking—The document includes required portion markings.

        The Executive order includes requirements for derivative classifications. Derivative
classifiers must also identify themselves by name and position or personal identifier. In addition,
derivative classifiers must observe original classification decisions and carry forward the
pertinent markings. In the event of multiple sources, the derivative classifier “shall carry
forward” the date or event for declassification that corresponds to the longest period of
classification among the sources and list all the source materials.

        The Executive order17 also states that original and derivative classifiers must have
training in proper classification:

         All original classification authorities must receive training in proper classification
         (including the avoidance of over-classification) and declassification as provided
         in this order and its implementing directives at least once a calendar year.

         Persons who apply derivative classification markings shall receive training in the
         proper application of the derivative classification principles of the order, with an
         emphasis on avoiding over-classification, at least once every two years.

        In addition, the Executive order18 requires that original and derivative classification
authorities for those classifiers who do not fulfill mandatory training requirements be suspended

15
   Marking Classified National Security Information, Dec. 2010.
16
   ISOO Document Review Sheet and Explanation of Discrepancies.
17
   Executive Order 13526, secs. 1.3(d) and 2.1(d).
18
   Requirements for suspension are covered in Executive Order 13526, sec. 1.3(d), for original classifiers and
sec. 2.1(d) for derivative classifiers.
                                                7
                                   SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

by the agency head or the senior agency official, designated under section 5.4(d) of the order,
until the required training is completed.

Department Implementation of Executive Order 13526

       In May 2011, the Department updated the DSCG 05-01, which became DSCG 11-01, to
include the new guidance for identifying and marking national security information. The
Department issued FAM19 requirements, which established procedures to implement Executive
Order 13526. The Department also issued an accompanying Foreign Affairs Handbook20 (FAH)
subchapter, containing guidance for classifying telegrams and emails using SMART.

        On June 28, 2010, the Department issued a telegram to all diplomatic and consular posts
on important changes in classification requirements contained in Executive Order 13526. This
telegram was followed by a Department Notice (issued on July 1, 2010), which restated the
information in the earlier telegram. Both the telegram and the Department Notice stated that an
online course for classification training was in development and that the course was anticipated
to be available to employees in late 2010.21 On August 19, 2011, A/GIS/IPS, in collaboration
with FSI, introduced an online training course, Classified and Sensitive But Unclassified
Information: Identifying and Marking (PK323). As an alternative to the online course, by
request, A/GIS/IPS provided an in-person classification training briefing to offices and bureaus.
On September 6, 2012, the Department issued a telegram22 reminding employees that the course
was required and that employees were responsible for completing the PK323 training.

Overclassification

        From the sample of 34 documents reviewed, OIG found one telegram, sent on February
28, 2011, that had been overclassified. ISOO defines23 overclassification as falling into one of
three categories: (a) “clear-cut,” the information in the document does not meet the standards
necessary for classification; (b) “questionable,” while the question of meeting classification
standards is arguable, classification does not appear to be necessary to protect our national
security; and (c) “partial,” at least one portion of the document appears to be unnecessarily
classified, although the overall classification of the document is correct. The information
contained in the February 28, 2011, telegram, if exposed, would not reasonably be expected to
cause damage to national security. The telegram was from the SAS repository and was
incorrectly marked as having been derived from a previous Confidential message. However, the
content of the telegram only mentioned the original telegram and did not disclose any
information from the original telegram to warrant the Confidential classification level.

       OIG interviewed the preparer of the telegram to determine why the document was
marked at the Confidential classification level, and the preparer stated that she had copied the

19
   5 FAM 480, “Classifying and Declassifying National Security Information—Executive Order 13526.”
20
   5 FAH-3 H-700, “E.O. 13526, Telegram and SMART Email Classification.”
21
   2010 STATE 00067242 “E.O. 13526 on Classified National Security Information in Effect June 27,” telegram,
June 28, 2010.
22
   2012 STATE 00090900, telegram, Sept. 6, 2012.
23
   ISOO Document Review Sheet and Explanation of Discrepancies.
                                              8
                                 SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

Confidential marking from the original telegram and had applied the classification level to the
new telegram. After learning of the appropriate classification standards, the preparer stated that
she recognized that the telegram had been overclassified and acknowledged that she had not
taken the PK323 online training.

Document Markings

        OIG selected a sample of classified documents from three repositories—SAS from
A/GIS/IPS, the Intelligence and Research production database from INR, and the Top Secret
collateral documents inventory list from DS. The SAS database, which is maintained by
A/GIS/IPS, accounts for all telegrams and SMART emails from the unclassified level up to the
Secret classification level. INR has a production database that consists of electronic classified
viewpoints, focuses, assessments, and internal documents such as memorandums.24 The INR
production databases are classified from Secret to Top Secret and have a Sensitive
Compartmented Information25 (SCI) tag. Since DS is responsible for safeguarding Top Secret
documents, DS maintains an inventory list of all physical locations within the Department where
hard copies of Top Secret collateral documents are stored. From this inventory, OIG selected a
sample of two hard copy Top Secret collateral documents26 stored in Department safes. (OIG’s
evaluation methodology is detailed in Appendix A.)

         OIG reviewed 34 documents from document repositories and inventory lists maintained
by A/GIS/IPS, INR, and DS and found that each of these documents had been completed
incorrectly. Specifically, OIG found a total of 54 discrepancies because some of the documents
reviewed were missing more than one of the five required marking elements. OIG found that 22
(65 percent) of the Department’s classified documents sampled had portion marking errors while
21 (62 percent) of the sampled classified documents lacked proper “Classified by” information
(for example, the document cited classification authority by name and position or personal
identifier). Moreover, the salient type of discrepancy varied by the database reviewed. For
example, of 20 classified documents reviewed from SAS, OIG found that 19 (95 percent) of
these documents did not have proper portion markings, as required by the Executive order. All
of the INR SCI documents evaluated did not include the names and titles of the classifiers.
Furthermore, a Top Secret draft memorandum27from an inventory list maintained by DS lacked
all five required marking elements. After the conclusion of OIG’s fieldwork, INR stated that a
software issue rather than a lack of training had resulted in an incorrect marking. The results of
OIG’s review of documents sampled from three Department repositories are shown in Table 1.




24
   The classified viewpoints, focuses, assessments, and internal documents in the INR production database are
controlled documents that are intended to inform policy makers on topics of interest.
25
   SCI refers to certain classified information that relates to specific national security topics or programs, the
existence of which is not publicly acknowledged or the sensitive nature of which requires special handling.
26
   Originally, OIG planned to sample seven Top Secret collateral documents but chose a sample of only two
documents because five documents were drafted by other agencies.
27
   Draft Memorandum dated February 1, 2011, Office of the Legal Adviser, Office of Political-Military Affairs.
                                                 9
                                    SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED


Table 1. Results of OIG’s Review of Classified Documents Created in 2011

                                                             Discrepancies Identified
 Department                       Marking
 Repository of                    (Overall
  Classified        Sample      Classification     Derived      Classified                   Portion           Total
 Information         Size        Markings)          From           By          Duration      Marking       Discrepancies

 State Archive            20                  1             7             8             0            19                  35
 System (SAS)

   Bureau of
  Intelligence
 and Research             12                  0             0            12             0             1                  13
     (INR)
   Production
    Database
   Diplomatic
 Security (DS)
                           2                  1             1             1             1             2                      6
 Inventory List
  of Collateral
  Documents

    Totals                34                  2             8            21             1            22                  54

Source: Prepared by OIG based on the results of its sample. The sample included approximately an equal number of different
types of documents (for example, original classification authority, derivative authority, Confidential, Secret, Top Secret
collateral, Secret/SCI, and Top Secret/SCI and documents created both domestically and at overseas posts).


        OIG judgmentally selected a sample of 13 Department employees involved with the
classification of the 34 documents. These employees were selected for interview based on
discrepancies identified in an effort to understand the cause of the discrepancies. Of those 13
employees, four employees stated that they had not received training on proper classification
procedures and were unaware that such training was required. The other nine employees had
received internal office-specific training (INR provides its own training for classifying
documents from the intelligence community, and employees at overseas post locations indicated
they had received some post-specific training). However, none of the document classifiers OIG
interviewed had taken the required FSI online training course Classified and Sensitive But
Unclassified Information: Identifying and Marking (PK323) or attended an in-person
classification briefing provided by A/GIS/IPS. Additionally, six of the 13 employees
interviewed utilized SMART-C while classifying documents, and three employees stated that
some discrepancies were due to the use of an outdated version of the application. (Details of the
SMART-C discrepancies are in Finding B.)




                                                 10
                                     SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Department Administration of Classification Training

        The Department sent a telegram28 on June 28, 2010, that notified all Department
employees about the training requirements included in Executive Order 13526 and stated that
“[PK323] is obligatory and all original and derivative classifiers should take the course as soon
as they reasonably can.” The subject line of the telegram stated, “E.O. 13526 on Classified
National Security Information in Effect June 27,” and the paragraph subheading for training
stated, “Classification Training.” Neither of these headings emphasized to the telegram recipient
that the classification training was obligatory. Similarly, a Department Notice followed the
telegram on July 1, disseminating the content of the earlier telegram.

        When A/GIS/IPS, in collaboration with FSI, introduced the PK323 distance learning
course in August 2011, A/GIS/IPS did not follow the Department’s practices for announcing
mandatory training. Department mandatory training programs are introduced through a
telegram, which specifically announces that “mandatory training” is available and that those
employees required to take and pass the course must do so by a stated deadline. A concurrent
Department announcement is generally released, again notifying employees of the “release of the
mandatory training course” and the employee’s responsibility to complete the course by a stated
deadline. For example, when a mandatory course on the Notification and Federal Employee
Antidiscrimination and Retaliation Act of 2002, commonly referred to as the “No FEAR Act,”
was introduced in November 2008, a telegram29 was sent notifying all employees of the
mandatory training requirement for the course and the deadline by which the training was to be
completed. The subject line of the telegram stated, “Mandatory Training on the No FEAR Act Is
Now Available Through FSI’s Distance Learning Course.” Also, under “Audience,” the
telegram stated, “The training is mandatory for US citizen Department of State employees.”
Further, under the same section, the telegram stated, “Employees are reminded of their
responsibility to take and pass this course by May 1, 2009.” The Department concurrently
released an announcement with the heading “Mandatory Training for All DOS Employees.” The
announcement also reminded employees of their responsibility to take and pass the course by the
established deadline. In addition, the Department’s Chief Information Security Officer followed
the same procedure in March 2004 to inform the post’s Information Systems Security Officer,
Information Systems Officer, Information Management Officer, and Management Officer that a
new FSI Cyber-security Awareness course was available online, was mandatory, and was to be
completed by all network users annually.

        When the June 2010 telegram about Executive Order 13256 was issued, the classification
training course PK323 was under development and would not become available until August
2011, approximately 13 months after the Executive order became effective. However, when
A/GIS/IPS introduced the online PK323 course in August 2011, the heading on the
announcement stated, “FSI Launches New Online Course—Classified and Sensitive Information:
Identifying and Marking (PK323).” The only statement made in the announcement regarding
enrollment was that “Department employees with National Security Clearances should enroll” in
the program. The announcement did not mention the mandatory nature of the course, deadlines,
28
  2010 STATE 00067242, telegram, June 28, 2010.
29
  “Mandatory Training on the No FEAR Act Is Now Available Through FSI’s Distance Learning Course,” 2008
STATE 00124825, telegram, Nov. 2008.
                                            11
                                SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

or penalties if the training was not completed. Further, as stated, the PK323 online course was
made available to Department employees in August 2011. However, Volume 13, “Training and
Professional Development,” of the FAM, does not include PK323 as an agency-mandated
course, even though it is the Department’s practice to list all mandated training courses in
Volume 13 of the FAM.30

       According to Department officials, the PK323 training course was not announced as
mandatory training because the clearances and approvals needed to declare the course as
mandatory had not been obtained. An official from A/GIS/IPS stated that an action memorandum
to make the course mandatory had been prepared on August 8, 2011, for the Under Secretary for
Management’s approval, but the memorandum was not advanced because the Director of Human
Resources and the employee unions had not reviewed and approved the training. In addition,
Department officials were deliberating about the optimum length and content of the PK323
course. As a result, the announcement of the mandatory training did not occur until
September 6, 2012. OIG determined that the September 2012 announcement was sufficient to
make all applicable Department employees aware of the training requirement. Therefore, OIG is
not making a recommendation to announce the training as mandatory but will monitor the
Department’s implementation through enforcement of the training requirement.

Department Enforcement of Mandatory Classification Training

        OIG also found that the Department had not fully adopted the enforcement language
prescribed by the Executive order to suspend classification authority when employees do not
take the required training. Specifically, the Executive order31 states that anyone with
classification authority “who does not receive such mandatory training at least once within a
calendar year shall [emphasis added] have their classification authority suspended by the agency
head or the senior agency official designated under section 5.4(d) of this Executive order until
such training has taken place.” However, guidance included in the FAM 32 states that
Department employees with classification authority “who fail to receive such training are
subject to [emphasis added] having their classification authority suspended until such training is
received.” This language is not as consequential as the language in the Executive order and may
not prompt personnel to take the training requirement as seriously.

        According to A/GIS/IPS officials, the Department had not established a tracking
mechanism to monitor compliance with the training. However, FSI currently has the capability
to record training completed by Department employees to include the online PK323 course.
Further, A/GIS/IPS plans to coordinate with FSI to establish a process to notify Department
supervisors of employee compliance with the classification training requirement.

Improper Classification and Document Marking Errors Adversely Affect National Security

       Improper classification or document marking errors may cause confusion on how to share
national security information or may negatively affect the dissemination of information within
30
   13 FAM 300, “Agency Mandated Training.”
31
   Executive Order 13526, sec 1.3(d).
32
   5 FAM 488.1.
                                           12
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

the Federal Government and with State, local, and tribal entities and with the private sector. For
example, when documents are overclassified, officials may not have key information necessary
to make decisions. Further, the absence of portion markings may contribute to the inadvertent
compromise of classified information and/or inappropriate application of classification.
Additionally, if an author of a document is unknown, later original or derivative classifiers would
not have the opportunity to discuss the content or classification level with the author. Lastly,
when information regarding declassification is omitted, documents may be classified for longer
periods of time than necessary.

       Recommendation 1. OIG recommends that the Bureau of Administration add the course
       Classified and Sensitive But Unclassified Information: Identifying and Marking (PK323)
       to the mandatory training list in Volume 13 of the Foreign Affairs Manual to promote
       awareness of the training requirement.

       Bureau of Administration Response: The A Bureau stated that FSI should be the lead
       action office for the recommendation and noted that FSI, in consultation with the
       A Bureau, had initiated clearance of a new subchapter in Volume 13 of the FAM, section
       300, covering mandatory training (13 FAM 370, “Mandatory Training for Classifiers of
       National Security Information”).

       FSI Response: As a participating entity for Recommendation 1, FSI stated that it, “in
       consultation with A/GIS/IPS/PP,” had initiated the new subchapter in 13 FAM 300 cited
       in the A Bureau’s response, which was put into the proper clearance process with a
       December 13, 2012, deadline. However, FSI disagreed with the A Bureau’s contention
       that it should be the lead action office for Recommendation 1, stating that the
       recommendation should be “changed” to reflect that FSI would work with the A Bureau
       to ensure that the course PK323 “is added” to the mandatory training list of the FAM.

       OIG Reply: OIG maintains that the A Bureau is the lead action office for the
       recommendation and is responsible for ensuring the PK323 course is added to the
       mandatory training list in the FAM. Because FSI has initiated the new subchapter in
       13 FAM 300 covering mandatory training, OIG considers this recommendation resolved,
       pending further action. This recommendation can be closed when OIG reviews and
       accepts documentation showing that the new FAM subchapter has been published to
       promote awareness of the PK323 training requirement.

       Recommendation 2. OIG recommends that the Bureau of Administration amend the
       Foreign Affairs Manual to align with the language in Executive Order 13526 that states
       that those who fail to receive classification training “shall” have their classification
       authority suspended.

       Bureau of Administration Response: The A Bureau stated that DS should be the lead
       action office for this recommendation. The A Bureau further stated that “suspension of
       classification authority is a decision that can only be made at the appropriate levels within
       the Department” and that it “does not have the authority to suspend classification
       authority of Departmental employees.” The A Bureau also stated that it would
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED

“coordinate with DS and all appropriate Departmental offices to align language” in the
FAM as needed.

Bureau of Diplomatic Security Response: DS did not agree with the A Bureau’s
contention that it should be the lead action office for this recommendation, stating the
Under Secretary for Management is the “Department’s Senior Agency Official for
compliance with” the Executive order, the “Assistant Secretary for A is responsible for
classification management provisions” of the order, and the Assistant Secretary for DS is
responsible for “implementing the safeguarding provisions” of the order. DS stated that
OIG’s recommendation in the draft report “accurately captures that division of labor” and
that “[a]lthough the Under Secretary for Management would have the ultimate authority
for granting original classification authority[,] granting and suspension of classification
authority is clearly a function of classification management not of safeguarding.”

OIG Reply: OIG considers this recommendation unresolved and maintains that the
A Bureau is the lead office for this recommendation. The A Bureau recognized that the
Assistant Secretary for Administration is responsible for the classification management
provisions of the Executive order and therefore is responsible for amending the FAM as
specified. This recommendation can be closed when OIG reviews and accepts
documentation showing that the A Bureau has amended the FAM as recommended.

Recommendation 3. OIG recommends that the Bureau of Administration, in
coordination with the Foreign Service Institute, immediately establish and implement a
process to identify Department of State classifiers who have not complied with the
classification training requirement and to take the actions required by the amended
Foreign Affairs Manual.

Bureau of Administration Response: The A Bureau stated that FSI should be the lead
action office for this recommendation and that the A Bureau would “coordinate with FSI
and other appropriate Departmental offices to develop a strategy for tracking
classification training completion.”

Foreign Service Institute Response: FSI did not agree that it should be the lead action
office for this recommendation, stating that it “does not track compliance for any
mandatory training,” does not “determine who should take mandatory courses,” and is
“not responsible for the penalties if someone does not take the mandatory offering.” In
addition, FSI stated that the A Bureau should explore “a comprehensive approach” that
allows the A Bureau to determine who has to take the mandatory training and then “set
up a system to be able to track it.”

OIG Reply: OIG considers this recommendation unresolved and maintains that the
A Bureau is the lead action office for this recommendation. This recommendation can be
closed when OIG reviews and accepts documentation showing that the A Bureau has
developed a strategy for tracking classification training completion and enforcing
consequences for noncompliance with the training requirement in the amended FAM.

                                  14
                      SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Finding B. The SMART-C 4.2 Application Needs Updating
        OIG found that the SMART-C 4.2 application, which was adopted by the Department in
2009 to assist with the proper marking of classified emails and telegrams, contributed to the
document marking discrepancies that OIG found in its evaluation of Confidential and Secret
emails and telegrams. Department personnel using SMART-C 4.2 were not marking classified
emails and telegrams in accordance with document marking standards prescribed by Executive
Order 13526. The discrepancies occurred because the SMART-C 4.2 version does not allow all
classifiers and drafters to properly mark classified emails. Specifically, the SMART-C 4.2
application does not have fields for the derivative classifiers or drafters to enter their names and
positions. Rather, only original classifiers have access to such fields. In addition, SMART-C 4.2
user instructions are based on the outdated DSCG 05-01 guide rather than the current guide,
DSCG 11-01, which includes the most recent document marking standards. Until IRM
completes installation of SMART-C 5.5 for all classifiers, document marking discrepancies for
emails and telegrams may continue.

Document Markings Discrepancies

        From the sample of 34 classified documents, OIG evaluated 20 Secret and Confidential
emails and telegrams obtained from the SAS repository and found nine document marking
discrepancies that were caused by limitations with the SMART-C 4.2 application. As detailed in
Table 1 in Finding A, nine (26 percent) of 35 of the total discrepancies found in the SAS
repository were attributable to this application. Discrepancies related to the use of SMART-C
4.2 were found in the “Derived from” and the “Classified by” lines, as presented in Table 2.

Table 2. Discrepancies Attributed to the SMART-C 4.2 Application
                                             Number of Discrepancies
                               Marking
                               (Overall
 State Archive    Sample     Classification    Derived        Classified              Portion         Total
 System (SAS)      Size       Marking)          From             By        Duration   Markings     Deficiencies

     Totals         20             0              2               7           0          0              9
Source: Prepared by OIG based on the results of its sample.

        The SMART-C related discrepancies occurred because the SMART-C 4.2 version does
not allow all classifiers and drafters to properly mark classified emails. For example, when using
the SMART-C 4.2 application, derivative classifiers and drafters were not able to enter their
names and titles because the fields were only accessible to classifiers with original classification
authority. In addition, the “Derived from” field is pre-populated with the outdated DSCG 05-01
guide rather than the current guide, DSCG 11-01. Further, during review of SMART-C 4.2, OIG
found that the data-entry screen did not have a selection box for the 50X1-HUM33 as one of the


33
  50X1-HUM is a duration marking to be used only if the information to be protected includes a confidential human
source or human intelligence source. This type of particularly sensitive information is not subject to automatic
declassification at 25 years.
                                              15
                                  SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

declassification dates. SMART-C 5.5 addresses these issues and allows classifiers to type in
their names and titles and to select 50X1-HUM as a declassification date.

        As of June 2012, 185 (54 percent) of 343 of the Department bureaus and overseas posts
used SMART-C 4.2. The remaining 158 Department bureaus, offices, and overseas posts have
been updated or are in the process of being updated to the SMART-C 5.5 application. IRM
stated that the process of updating SMART-C 4.2 to SMART-C 5.5 is underway for the entire
Department. OIG reviewed the SMART-C 5.5 version and concluded that the application had all
the fields needed to address the document marking discrepancies identified in the SMART-C 4.2
version.

        The SMART-C 4.2 application contributed to the discrepancies OIG found with
document markings because it did not allow classifiers for both derivative and original
classifications to include their names and positions, which is contrary to the document marking
standards prescribed by Executive Order 13526. In addition, approximately half of the
Department classifiers are currently using SMART-C 4.2. Until IRM completes installation of
SMART-C 5.5 for all classifiers, document marking discrepancies for emails and telegrams may
continue.

       Recommendation 4. OIG recommends that the Bureau of Administration, in
       coordination with the Bureau of Information Resource Management, replace the
       Classified State Messaging Archive and Retrieval Toolset (SMART-C) 4.2 application
       with SMART-C 5.5 for all users of the classified email network to promote compliance
       with Executive Order 13526.

       Bureau of Administration Response: The A Bureau stated that IRM should be the lead
       action office for this recommendation because IRM “is currently deploying SMART-C
       5.5” and that it will “continue to collaborate with IRM to ensure that SMART-C 5.5
       meets classification marking requirements.”

       OIG Reply: OIG considers this recommendation unresolved and maintains that the
       A Bureau is the lead action office for this recommendation. This recommendation can be
       closed when OIG reviews and accepts documentation showing that the A Bureau has
       coordinated with IRM to ensure that SMART-C 4.2 is updated to SMART-C 5.5 for all
       users of the classified email network to promote compliance with Executive Order 13526.

Finding C. The Self-Inspection Program and the SF-311 Report Need
Improvement

        OIG found that A/GIS/IPS had established and had performed a self-inspection of its
classification program, as required by Executive Order 13526, but the self-inspection had not
included a representative sample of all classified documents within the Department. OIG also
found that A/GIS/IPS had significantly overstated classification decisions reported in its



                                         16
                             SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

FY 201134 submission to ISOO by as much as 2.4 million. According to A/GIS/IPS officials, the
self-inspection did not include a representative sample of all classified documents because
A/GIS/IPS did not have direct or timely access to Top Secret documents maintained by other
Department bureaus. With respect to the overstated classification decisions reported for
FY 2011, an INR official stated that this overstatement occurred because he did not review the
ISOO guidance on how to complete the SF-311 and overestimated the number of derivative
classification decisions made by the Department in FY 2011. The overstatement was then
provided to A/GIS/IPS and subsequently reported to ISOO. As a result, the Department’s self-
inspection report was not reliable, was not a true representation of all the Department’s
classification decisions, and therefore was not in full compliance with the requirements of the
Executive order. In addition, since A/GIS/IPS is responsible for submitting the SF-311 report to
ISOO, the overstatement of the number of classification decisions made in FY 2011 led to an
inaccurate reporting that negatively impacted the annual report to the President.

Requirements for Self-Inspection and Classification Data Reporting

        Executive Order 13526 makes the senior level agency official responsible for
“establishing and maintaining an ongoing self-inspection program, which shall include the
regular reviews of representative samples of the agency’s original and derivative classification
actions.”35 The purpose of the self-inspection is to “evaluate the adherence to the principles and
requirements of the Order . . . and the effectiveness of agency programs covering original
classification, derivative classification, declassification, safeguarding, security violations,
security education and training, and management and oversight.”36 In addition, ISOO is required
to report annually to the President on the implementation of the Executive order37 by collecting
agency classification data via the SF-311 from executive branch agencies that create and/or
handle classified national security information. The agencies are required to submit the
completed forms on an annual basis to ISOO for inclusion in the report to the President.38

The Self-Inspection Program

        A/GIS/IPS reported the results of its first self-inspection of the classification program to
ISOO on January 20, 2012. OIG reviewed the self-inspection report and its results, focusing on
original and derivative classification, and found that the Department had generally followed
guidance contained in the Executive order in addition to the guidance provided by ISOO in its
implementing memorandum dated April 5, 2011. However, the sample selected by A/GIS/IPS
included Confidential and Secret documents, but it did not include Top Secret documents.
Otherwise, A/GIS/IPS followed ISOO guidance in sampling 160 Confidential and Secret
Department-prepared documents obtained from SAS. The sample consisted of 38 originally
classified documents from 2010, 15 derivatively classified documents from 2010, 79 originally
classified documents from 2011, and 28 derivatively classified documents from 2011. To

34
   SF-311, Agency Security Classification Management Program Data. This form is due by November 15 of each
year.
35
   Executive Order 13526, sec. 5.4.
36
   32 C.F.R. §§ 2001 and 2003.
37
   Executive Order 13526, sec. 5.2.
38
   32 C.F.R. § 2001.80(d)(1).
                                             17
                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

determine whether the documents sampled were classified and marked properly, A/GIS/IPS used
a worksheet modeled on the ISOO checklist to evaluate each of the classified documents. The
following compliance categories were reviewed: Original Classification versus Derivative
Classification, Standard for Classification (level), Use of Original or Derived Classification
Authority, Classifier’s Identity (name and title), Reason (optional for derivative), Duration,
Declassification Event or Date, Portion Marking, and Invalid Marking.

        According to A/GIS/IPS officials, Top Secret documents were not included in the sample
of classified documents because A/GIS/IPS does not maintain Top Secret documents nor does it
have direct or timely access to the Top Secret documents held at INR and DS. Further, because
A/GIS/IPS had considered timely submission of the self-inspection report to ISOO important, the
sample included only classified documents available to A/GIS/IPS in the SAS repository, which
A/GIS/IPS maintains.

         Because Top Secret documents were omitted from the self-inspection sample, the results
reported to ISOO were not a true representation of all the Department’s classification decisions,
and therefore it was impossible to fully evaluate the Department’s adherence to principles and
requirements of the Executive order and the effectiveness of the Department’s programs
covering original and derivative classifications. Gaining an understanding of the classified
documents created and held within the Department, to include the INR production database,
classified email systems, and DS inventory of hard-copy collateral Top Secret documents, is a
critical step toward achieving an effective self-inspection program that ensures that a proper
representative sample can be selected for review.

       Recommendation 5. OIG recommends that the Bureau of Administration, in
       coordination with the Bureau of Intelligence and Research and the Bureau of Diplomatic
       Security, develop and implement a sampling methodology that attains a representative
       sample of all classified documents maintained within the Department of State for its
       annual self-inspection of the classification program.

       Bureau of Administration Response: The A Bureau stated that INR and DS should be
       the lead action offices for this recommendation and that it is “committed to ensuring the
       validity of all data provided to it by Departmental bureaus and offices in preparing the
       annual self-inspection report.” The A Bureau also stated that the “problems” OIG
       identified in the report “with inaccurate data on Top Secret classification actions involve
       issues that are wholly outside of A/GIS/IPS's control, including the inability to directly
       access Top Secret documents controlled or maintained by other Department bureaus and
       the inability to independently verify data provided by INR.”

       Bureau of Diplomatic Security Response: DS disagreed with the A Bureau’s
       contention that it should be a lead action office for the recommendation. DS stated that
       given that the Under Secretary for Management has overall authority for ensuring
       compliance with Executive Order 12958 while the Assistant Secretary for Administration
       is responsible for classification management provisions of the Executive order, to include
       marking requirements, the A Bureau should lead this effort, and as recommended by
       OIG, should do so in collaboration with INR and DS.
                                         18
                             SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



        OIG Reply: OIG considers this recommendation unresolved and maintains that the
        A Bureau is the lead action office for this recommendation. The A Bureau is responsible
        for preparing and submitting the annual self-inspection report and should therefore
        coordinate with other bureaus and offices impacted to develop and implement a sampling
        methodology that attains a representative sample of all classified documents maintained
        within the Department. In addition, the A Bureau should coordinate with DS and INR to
        obtain access to review Top Secret documents. This recommendation can be closed
        when OIG reviews and accepts documentation showing a sampling methodology that
        attains a representative sample of all classified documents maintained within the
        Department for its annual self-inspection of the classification program.

Agency Security Classification Management Program Data Report (Standard Form 311)

        OIG found that A/GIS/IPS had not accurately reported derivative classification decisions
in its SF-311 report for FY 2011. This inaccuracy occurred because information provided by
INR about classification decisions involving emails had been overstated by as much as four
times because of counting and oversight errors. According to the INR official tasked with
compiling and providing the information to A/GIS/IPS, INR had not reviewed the ISOO
guidance on how to accurately count the data required for the SF-311 report until OIG inquired
about the reported data. In addition, A/GIS/IPS accepted and reported the data provided by INR
without reviewing the submission and validating its accuracy. As a result, the data reported to
ISOO by A/GIS/IPS significantly overstated the number of derivative classification decisions
made by the Department in FY 2011.

        In the Department, the Under Secretary for Management is the designated senior agency
official responsible for the implementation of the Executive order. The Under Secretary
delegated portions of the classification program, to include classification of information, to
A/GIS/IPS. Statistical reporting under the Executive order via the SF-311 is performed by the
A/GIS/IPS Deputy Assistant Secretary.

        In June 2011, ISOO provided all Federal agencies with guidance39 on how to complete
the SF-311. The guidance requires agencies to count all original and derivative classification
actions and states that estimates are allowable for derivative classification decisions only. In
addition, the guidance provides specifics on how to count classified emails in which a derivative
decision was made and cautions agencies against counting email strings and/or replies. The
guidance also states that agencies should not include products classified by another agency or
reproductions or copies in the count. Finally, the guidance suggested that when errors are
detected following the submission of the SF-311, agencies should submit a revised SF-311.

        In the Department’s FY 2011 SF-311 report, the number of derivative classification
decisions reported for 2011 was 3,169,448.40 During discussions with INR regarding the process
used to determine the number of derivative decisions made, OIG confirmed that the numbers
39
  ISOO’s informational booklet, SF 311: Agency Security Classification Management Program Data, June 2011.
40
  INR is responsible for determining and submitting to the A Bureau the number of classification decisions it made
for inclusion in the SF-311 report.
                                              19
                                  SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

reported were inaccurate because INR had not followed the guidance provided by ISOO on how
to count or estimate classified emails. According to the INR official responsible for the count,
the INR system could not tally email by classification level (Top Secret, Secret, or Confidential);
therefore, he manually counted each level of classified documents based on the email usage
profile of INR users. After reviewing the ISOO guidance, the INR official determined that the
number of derivative classifications made was overstated by as much as four times the actual
number because he had counted the emails incorrectly, including duplicate replies in the email
strings. Based upon this input, OIG estimated that the total number of derivative classifications
for INR in 2011 would have been closer to 790,000. In addition, A/GIS/IPS simply reported the
number of derivative decisions provided by INR without validating the accuracy of the number.

        Because A/GIS/IPS is responsible for the preparation and submission of the SF-311 to
ISOO, it is essential that A/GIS/IPS review the SF-311 in accordance with ISOO guidance.
Inaccurate reporting by agencies negatively impacts the annual report to the President, as
occurred when A/GIS/IPS reported a significant overstatement of the number of derivative
classification decisions made by the Department in 2011.

       Recommendation 6. OIG recommends that the Bureau of Administration ensure that all
       Department of State bureaus that contribute data reported on Standard Form 311 receive
       and comply with guidance from the National Archives and Records Administration,
       Information Security Oversight Office, that pertains to validating the data submitted to
       the National Archives and Record Administration is accurate.

       Bureau of Administration Response: The A Bureau concurred “in part” with this
       recommendation, stating that it will continue to provide all Department bureaus that
       contribute data reported on SF-311 “with the appropriate guidance from the National
       Archives and Records Administration's Information Security Oversight Office.” The
       A Bureau also agreed to collaborate with appropriate Departmental offices to develop
       bureau-specific guidance for compiling the data required to be reported on the SF-311 but
       stated that “a senior official in each Department bureau or office that contributes data” to
       the SF-311 should be responsible for ensuring that the bureau or office that maintains that
       data validates the data before it is provided to the A Bureau.

       OIG Reply: OIG acknowledges the A Bureau’s role in providing an accurate SF- 311
       and agrees that the senior official in each bureau and/or office should ensure data
       provided to the A Bureau is accurate. However, OIG maintains that the A Bureau should
       validate the compilation of data reported in the SF- 311 before submitting the data to the
       National Archives and Records Administration's Information Security Oversight Office.
       OIG considers this recommendation resolved, pending further action. This
       recommendation can be closed when OIG reviews and accepts documentation showing
       that the A Bureau has provided Department bureaus and offices with specific guidance
       for submitting the data required for the SF- 311 report and that it validates the data for
       accuracy prior to submission.




                                          20
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                 List of Recommendations

Recommendation 1. OIG recommends that the Bureau of Administration add the course
Classified and Sensitive But Unclassified Information: Identifying and Marking (PK323) to the
mandatory training list in Volume 13 of the Foreign Affairs Manual to promote awareness of the
training requirement.

Recommendation 2. OIG recommends that the Bureau of Administration amend the Foreign
Affairs Manual to align with the language in Executive Order 13526 that states that those who
fail to receive classification training “shall” have their classification authority suspended.

Recommendation 3. OIG recommends that the Bureau of Administration, in coordination with
the Foreign Service Institute, immediately establish and implement a process to identify
Department of State classifiers who have not complied with the classification training
requirement and to take the actions required by the amended Foreign Affairs Manual.

Recommendation 4. OIG recommends that the Bureau of Administration, in coordination with
the Bureau of Information Resource Management, replace the Classified State Messaging
Archive and Retrieval Toolset (SMART-C) 4.2 application with SMART-C 5.5 for all users of
the classified email network to promote compliance with Executive Order 13526.

Recommendation 5. OIG recommends that the Bureau of Administration, in coordination with
the Bureau of Intelligence and Research and the Bureau of Diplomatic Security, develop and
implement a sampling methodology that attains a representative sample of all classified
documents maintained within the Department of State for its annual self-inspection of the
classification program.

Recommendation 6. OIG recommends that the Bureau of Administration ensure that all
Department of State bureaus that contribute data reported on Standard Form 311 receive and
comply with guidance from the National Archives and Records Administration, Information
Security Oversight Office, that pertains to validating the data submitted to the National Archives
and Record Administration is accurate.




                                         21
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


                                                                                                    Appendix A
                                        Scope and Methodology

       The Office of Inspector General (OIG), Office of Audits, conducted this evaluation in
response to the Reducing Over-Classification Act, enacted October 7, 2010. OIG conducted
fieldwork for this evaluation from March to August 2012 in the Washington, DC, metropolitan
area. This evaluation was conducted in accordance with the Council of the Inspectors General
on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation, issued in 2012.
These standards require inspections to be adequately planned and that evidence supporting
findings, conclusions, and recommendations be sufficient, competent, and relevant. OIG
believes that the evidence obtained provides a reasonable basis for the findings and conclusions
based on the evaluation objectives.

        To obtain background and criteria for the evaluation, OIG researched and reviewed
regulations and guidance related to Executive Order 13526. These regulations and guidance
included the Code of Federal Regulations;1 the Foreign Affairs Manual (FAM); the Foreign
Affairs Handbook (FAH); a 2006 Government Accountability Office (GAO) report;2 guidance
from the National Archives and Records Administration, Information Security Oversight Office
(ISOO); and prior OIG reports as described.

        Based on discussions with ISOO, OIG’s evaluation scope focused on assessing to what
extent the Department implemented the provisions of the Executive Order.3

        To gain an understanding of how the Department implemented Executive Order 13526,
OIG interviewed and reviewed documentation from Department officials in the Bureau of
Administration, Global Information Services, Information Programs and Services (A/GIS/IPS);
the Bureau of Intelligence and Research (INR); the Bureau of Diplomatic Security (DS); and an
official from the Foreign Service Institute. Additionally, OIG interviewed drafters and
classifiers of various classified documents from different bureaus, offices, and posts.

Prior OIG Reports

        OIG reviewed internal audit and inspection reports to identify previously reported
information related to the classification of national security. Prior to the issuance of Executive
Order 13526 and Public Law 111-258, OIG performed three reviews4 related to classified
information. The first report focused on the declassifying of materials, and the second and third
reports focused on the handling and protection of classified information.


1
  32 C.F.R. §§ 2001 and 2003, “Classified National Security Information; Final Rule.”
2
  Managing Sensitive Information-–DOD Can More Effectively Reduce the Risk of Classification Errors
 (GAO-06-706, June 2006).
3
  Executive Order 13526, “Classified National Security Information,” Dec. 29, 2009. Executive Order: Part 1—
Original Classification, Part 2—Derivative Classification, and Part 5—Implementation and Review.
4
  Declassifying State Department Secrets (SIO/A-98-50, Sept. 1998), Protection of Classified Information at State
Department Headquarters (SIO/A-04-11, Jan. 30, 2004), and Protection of Classified Information at State
Department Headquarters (SIO/A-05-13, Feb. 1, 2005).
                                               22
                                   SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Use of Computer-Processed Data

         The evaluation team used a significant amount of computerized data in this evaluation.
Almost all of the classified documents OIG reviewed were electronic. OIG assessed the
reliability of computer-generated data by requesting and reviewing classified documents from
the Department of State’s (Department) repositories and interviewing cognizant officials. OIG
discovered that the Department does not have one centralized repository that holds all classified
documents. In addition, OIG discovered from interviews with Department officials that there
were some discrepancies in the Department’s count of classified documents in the electronic
repositories. For example, OIG discovered that the Department had overstated in its reporting to
ISOO the amount of electronic classified documents.

OIG Review of Classified Documents

        OIG’s team reviewed classified documents from two electronic archive systems. OIG
obtained Confidential and Secret documents from the State Archive System (SAS) and obtained
Secret/Sensitive Compartmented Information (SCI) and Top Secret/SCI documents from INR’s
production database. Because the INR production repository is classified at the Top Secret/SCI
level, OIG did not have direct access to the repository. Therefore, hard copies of Secret/SCI and
Top Secret/SCI documents were provided to OIG.

Review of Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to the areas
evaluated. For example, OIG gained an understanding of the Department’s processes for
classifying and archiving classified documents as well as for setting declassification dates for
classified documents. The OIG team also discussed discrepancies identified during its review of
the Department’s self-inspection report for 2011. Additionally, OIG noted discrepancies in the
Department’s Standard Form 3115 submitted to ISOO. OIG reviewed Federal guidance, such as
Executive Order 13526, the implementing directive for Executive Order 13526, and ISOO’s
guidance to agencies. To determine whether the Department was in compliance with Executive
Order 13526, OIG also performed a comparative analysis on Department guidance such as the
FAM, the FAH, and the Department of State Classification Guide (DSCG) and on other
Department guidance such as telegrams and memorandums. OIG’s conclusions are presented in
the respective Finding sections of this report.

Detailed Sampling Methodology and Results

        The objectives of this evaluation were to determine whether applicable classification
policies, procedures, rules, and regulations had been adopted, followed, and effectively
administered within the Department and to identify policies, procedures, rules, regulations, or
management practices that might be contributing to persistent misclassification of material
within the Department.


5
    Standard Form 311, Agency Security Classification Management Program Data.
                                               23
                                   SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

        Identification of Universes

         To attain the evaluation objectives, OIG planned to obtain and then evaluate via sampling
two universes6 (or populations), namely, the universe of all classified Department documents
(both original and derivative) and the universe of the classified documents the Department
reviewed during its self-assessment. OIG encountered no difficulty in identifying the universe of
the latter, but the former was not available in its entirety for OIG review. OIG therefore used as
its working population three subpopulations: A/GIS/IPS’s State Archive System (SAS); INR’s
production database; and DS’s collateral Top Secret hard-copy documents, which are located in
Department safes at various bureaus and/or offices.

        More specifically, OIG ascertained during its preliminary work that the Department’s
classified documents were not archived in a centralized location. Rather, OIG identified three
main bureaus that had inventories of classified documents: A/GIS/IPS, INR, and DS. OIG
further learned that A/GIS/IPS’s SAS had an electronic archived version of Confidential and
Secret documents, INR’s production database had an electronic inventory of Secret/SCI and Top
Secret/SCI documents, and DS had an inventory listing of all the collateral Top Secret
documents that were the hard copies (located in Department safes at various bureaus and/or
offices).

        Finally, there were two other repositories of classified documents, namely, the
Secretary’s Archives, which are personal archives of the Secretary of State, and the INR
Intelligence Community Email system. However, these two subpopulations were not employed
in OIG’s sample. OIG plans to evaluate a sample of documents from these archives in its next
evaluation of compliance with the requirements of the Executive order. Additionally, an INR
official informed OIG that the preponderance of the documents in the INR Intelligence
Community Email system were classified emails that frequently were from other agencies.

        Selection of Samples

        The sampling objective was twofold. OIG tested via sampling the Department’s
classified documents, which included Top Secret/SCI documents, Top Secret documents,
Secret/SCI, Secret documents, and Confidential documents. OIG initially planned to select
classified documents to test using statistical sampling, (that is, choosing documents via a random
process so that every member of the population has a known, nonzero chance of being selected).
The specific statistical method chosen was stratified random sampling—a technique that entails
separating the population elements into non-overlapping groups, called strata, and then randomly
sampling from each stratum. However, OIG encountered impediments that hampered its efforts
to select documents via statistical sampling.

       First, the Department’s universe of original and derivative classified documents reported
to ISOO was significantly overstated. Second, A/GIS/IPS and INR officials did not provide

6
 A universe (population) is composed of the individual elements from which the sample will be drawn. There
sometimes are two universes: the target universe (the exact group about which information is desired) and the
working universe (which does not always match the target universe).
                                              24
                                  SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

some randomly selected documents to OIG, which hampered efforts to test classified documents
via statistical sampling.

        In addition, because classified documents were dispersed at various locations, the
universe of interest was not available at one central site. Consequently, OIG had to use several
sampling frames7 to achieve the sampling objective. More specifically, to effect sample
selection, OIG obtained, from A/GIS/IPS, one frame for the SAS universe; one frame from INR;
and one frame from DS. However, detail provided from these frames varied greatly.
A/GIS/IPS’s SAS frame provided the most detail. Specifically, it identified the documents by
the most attributes (that is, Confidential vs. Secret; original vs. derivative; and D.C. metropolitan
area vs. all other areas, including overseas posts), which enabled OIG to make more informed
sample selections and also facilitated data analysis.

       Information obtained from the three sampling frames that provided the sampling units for
the universe of classified documents is presented in Tables 1, 2, and 3, which include universe
and sample sizes as well as other pertinent information.

        The sampling frame for SAS identified the documents by various attributes (for example,
Confidential vs. Secret and original vs. derivative), as presented in Table 1. Consequently, OIG
was able to select a total sample of 20 documents with diverse attributes, such as classification
level (Confidential or Secret) and classification authority (original or derivative). However,
A/GIS/IPS officials did not provide five randomly selected documents to OIG, thereby
hampering efforts to effect document selection via statistical sampling.




7
 A sampling frame is a database (or other collection of data) containing the totality of the sampling units (the
universe) from which the sample will be selected.
                                                25
                                    SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Table 1. State Archive System Universe and Sample of Confidential and Secret Documents
        Strata
      (Number) Classification               From              Sample* Universe
                                  SECSTATE WASHDC, Not
          #1       Confidential          Derived from                 2      2,883
                                     SECSTATE WASHDC,
          #2       Confidential          Derived from                 2        850
                                  SECSTATE WASHDC, Not
          #3          Secret             Derived from                 3      5,315
                                     SECSTATE WASHDC,
          #4          Secret             Derived from                 3     18,969
                                  Not SECSTATE WASHDC,
          #5       Confidential        Not Derived from               3     24,125
                                  Not SECSTATE WASHDC,
          #6       Confidential          Derived from                 3      5,210
                                  Not SECSTATE WASHDC,
          #7          Secret           Not Derived from               2     12,704
                                  Not SECSTATE WASHDC,
          #8          Secret             Derived from                 2      3,130
                              Totals                                 20     73,186
       Source: Prepared by OIG based on the results of its sample.
       Note: The asterisk (*) denotes that the sample was not random, despite OIG’s efforts, because A/GIS/IPS
       officials did not provide all the randomly selected documents, thereby requiring substitutions.

       While testing the sample of 20 SAS documents for classification discrepancies, OIG
determined that some discrepancies were caused by outdated SMART software (version 4.2).
Consequently, the same sample was also used to determine any discrepancies that the outdated
software might have caused.

       INR provided a frame that differentiated the documents only by classification level (for
example, Secret/SCI vs. Top Secret/SCI), as presented in Table 2. OIG sampled 12 documents
from the INR universe.

Table 2. Universe and Sample for Bureau of Intelligence and Research Production
Repository
          Strata
        (Number)     Classification       From              Sample      Universe
                                      (Assessments/
            #1        Secret (SCI)     Comments)                  6           858
                                      (Assessments/
            #2      Top Secret (SCI)   Comments)                  6           294
                           Totals                                12         1,152
       Source: Prepared by OIG based on the results of its sample.

       DS had an inventory of all the Top Secret collateral documents in the Department, as
presented in Table 3. However, these classified documents were not all Department-generated
                                            26
                                SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED

classified documents. The majority of these documents were created and given to the
Department by outside agencies. Originally, OIG wanted to obtain a sample from each bureau
that had a Top Secret collateral document. However, during the fieldwork, OIG ascertained that
some of the documents OIG had randomly selected for testing were not created by the
Department and therefore had to be excluded from the sample. Specifically, OIG selected seven
documents from the Top Secret collateral inventory list but was able to sample and test only two
documents.

       Table 3. Universe and Sample for Bureau of Diplomatic Security Inventory of Top
       Secret Collateral Documents from Various Bureaus
                     Strata
        Bureau     (Number) Classification       From         Sample Universe*
        S/ES-S         #1        Top Secret      2011               0          60
         L/FO          #2        Top Secret      2011               0           3
        S/ES-O         #3        Top Secret      2011               0          81
         L/PM          #4        Top Secret      2011               1          23
        PA/HO          #5        Top Secret      2011               0           2
         DRL           #6        Top Secret      2011               0           4
          INR          #7        Top Secret      2011               1           3
                             Totals                                 2         176
       Source: Prepared by OIG based on the results of its sample.
       Note: The asterisk (*) denotes that the total number of classified documents in this universe is overstated
       because the majority of these documents were created by outside agencies and not the Department.

       Detailed Results

       Testing results of A/GIS/IPS’s SAS database for user compliance with marking
requirements from a sample of 20 documents classified at the Confidential and Secret levels are
presented in Table 4. Of the 20 documents evaluated, OIG noted a total of 35 discrepancies
because some of the documents evaluated were missing more than one of the five required
marking elements described in the section “Requirements of Executive Order 13526” in Finding
A of the report.




                                             27
                                 SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Table 4. State Archive System Sample of Confidential and Secret Documents
                                           Discrepancies Identified
                   Sample                      Derived        Classified              Portion        Total
                    Size       Marking          From             By        Duration   Markings   Discrepancies
 Confidential –
  SECSTATE
WASHDC, Not               2              0               0            0           0         2               2
 Derived from
 Confidential –
  SECSTATE
  WASHDC,                 2              0               1            1           0         2               4
 Derived from
    Secret –
  SECSTATE
WASHDC, Not               3              1               0            0           0         2               3
 Derived from
    Secret –
  SECSTATE
  WASHDC,                 3              0               3            3           0         3               9
 Derived from
 Confidential –
Not SECSTATE
WASHDC, Not               3              0               0            0           0         3               3
 Derived from
 Confidential –
Not SECSTATE
  WASHDC,                 3              0               1            2           0         3               6
 Derived from
    Secret –
Not SECSTATE
WASHDC, Not               2              0               0            0           0         2               2
 Derived from
    Secret –
Not SECSTATE
  WASHDC,                 2              0               2            2           0         2               6
 Derived from
    Total                20              1               7            8           0         19             35
Source: Prepared by OIG based on the results of its sample.


        Testing results of INR’s production database for user compliance with marking
requirements from a sample of 12 documents classified at the Secret/SCI and Top Secret/SCI
levels are presented in Table 5. Of the 12 documents evaluated, OIG noted a total of 13
discrepancies because one of the documents evaluated was missing more than one of the five
required marking elements described in the section “Requirements of Executive Order 13526” in
Finding A of the report.




                                              28
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



Table 5. Bureau of Intelligence and Research Production Repository
                                             Discrepancies Identified
                  Sample                       Derived                                         Portion        Total
                   Size         Marking         From          Classified By      Duration      Markings   Discrepancies
  Secret/SCI
(Assessments/            6                0           0                     6              0          0              6
 Comments)
 Top Secret/
     SCI
(Assessments/            6                0           0                     6              0          1              7
 Comments)
    Total              12                 0           0                 12                 0          1             13
Source: Prepared by OIG based on the results of its sample.

        Testing results for user compliance with marking requirements from a sample of two
documents classified at the Top Secret collateral level are presented in Table 6. Of the two
documents evaluated, OIG noted a total of six discrepancies because one of the documents
evaluated was missing more than one of the five required marking elements described in the
section “Requirements of Executive Order 13526” in Finding A of the report.

Table 6. Bureau of Diplomatic Security Inventory of Top Secret Collateral Documents
From Various Bureaus
                                            Discrepancies Identified
   Bureau         Sample                        Derived        Classified                      Portion        Total
                   Size         Marking          From             By            Duration       Markings   Discrepancies
   S/ES-S                0                -               -            -               -              -              -
    L/FO                 0                -               -            -               -              -              -
   S/ES-O                0                -               -            -               -              -              -
    L/PM                 1                1               1            1               1              1              5
   PA/HO                 0                -               -            -               -              -              -
    DRL                  0                -               -            -               -              -              -
     INR                 1                0               0            0               0              1              1

   Total                 2                1               1            1               1              2              6
Source: Prepared by OIG based on the results of its sample.

        OIG used the same sample of 20 documents employed to assess user compliance with
marking requirements for A/GIS/IPS’s SAS database. (See Table 4 in this appendix.) In this
instance, OIG tested this sample to determine whether using outdated software, SMART-C 4.2,
rather than the newer version, SMART-C 5.5, contributed to the marking deficiencies.
Specifically, OIG found nine discrepancies related to the use of the outdated version of software,
SMART-C 4.2, as presented in Table 7.


                                              29
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


Table 7. SMART-C Related Errors (Confidential and Secret)
                                         Discrepancies Identified
                   Sample                       Derived       Classified              Portion        Total
                    Size        Marking          From            By        Duration   Markings   Discrepancies
 Confidential –
  SECSTATE
WASHDC, Not              2                 0            0             0           0         0                0
 Derived from
 Confidential –
  SECSTATE
  WASHDC,                2                 0            0             1           0         0                1
 Derived from
    Secret –
  SECSTATE
WASHDC, Not              3                 0            0             0           0         0                0
 Derived from
    Secret –
  SECSTATE
  WASHDC,                3                 0            0             3           0         0                3
 Derived from
 Confidential –
Not SECSTATE
WASHDC, Not              3                 0            0             0           0         0                0
 Derived from
 Confidential –
Not SECSTATE
  WASHDC,                3                 0            1             1           0         0                2
 Derived from
    Secret –
Not SECSTATE
WASHDC, Not              2                 0            0             0           0         0                0
 Derived from
    Secret –
Not SECSTATE
  WASHDC,                2                 0            1             2           0         0                3
 Derived from
    Total               20                 0            2             7           0          0               9
Source: Prepared by OIG based on the results of its sample.




                                              30
                                  SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



                                                                                                    Appendix B


                                                            nitt·d , tate:            t>partment of Stat(·

                                                          11 a.~llinf!fon. {}, {.',    :?f/;):!f)




                                                                                      February 7, 2013
        Mrs. Evelyn R. Klemstine
        Assistant Inspector General for Audits
        Office of the Inspector General
        U.S. Department of State
(b)(2)(b)(6)




        Dear Mrs. Klemstine:

              The Bureau of Administration appreciates the opportunity to review and
        comment on the draft report of the Office of Inspector General, Office of Audits'
        Evaluation of the Department of State Implementation ofExecutive Order 13526.
        Please fmd our comments on the draft report and cited documents attached. We
        also appreciate the extension of time to prepare and provide these cleared
        comments to you. If there are any questions or you need additional information,
                                       (b)(2)(b)(6)
        please contact me at (202) 632              or (b)(2)(b)(6)@state.gov.




                                                           Office of Information Programs
                                                           and Services
        Attachments:
              As stated.

                                                 31
                                 SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED




Bureau of Administration Comments to Draft Audit Report
"Evaluation of Department of State Implementation of
Executive Order 13526, Classified National Security Information"
February 5, 2013

The Bureau of Administration (A) appreciates the opportunity to review and
comment on the draft report (draft report) of the Office of Inspector General
(OIG), Office of Audits' "Evaluation of the Department of State Implementation of
Executive Order (E.O.) 13526, Classified National Security Information."

At the outset, we respectfully request that OIG reconsider the extent to which this
audit accurately captures the purposes of the audit requirement of the Reducing
Over-Classification Act 1 (the Act). We believe a revised interpretive framing of
the audit requirement consistent with the Act's legislative history, spirit and intent
would, in fact, lead to a more appropriate (and positive) audit assessment of the
Department's overall performance, in contrast to what appears in the draft audit
report to be a misinterpretation of that requirement that has led to an unduly
negative audit result. We are happy to continue to work with the OIG audit team to
align the final report more closely to what we believe the Act and the underlying
Executive Order 13526, which governs the national security information
classification process, intend and require.

As noted in the report, the statutory requirement on which this audit is based is
found in Section 6(b )(1) of the Act, which calls on the Inspector General:

       "(A) To assess whether applicable classification policies, procedures, rules, and
       regulations have been adopted, followed, and effectively administered within
       such department, agency, or component; and

       (B) To identify policies, procedures, rules, regulations, or management
       practices that may be contributing to persistent misclassification of material
       within such department, agency or component."

As is clear from the title of the statute and the audit standards noted above, the
overarching purpose of the Reducing Over-Classification Act is to assess and
ultimately prevent over-classification of information by the government. In this
1   Pub. L. No. 111-258, 124 Stat. 2644 (20 10)

                                                  32
                                      SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




context, the reference in Section 6(b )(1 )(B) to "persistent misclassification" is
primarily intended to refer to the need to prevent government agencies from
classifying information at the incorrect classification level or classify information
for the wrong reasons, with a particular focus on preventing agencies from over-
classifying information.

Section 1.6 of Executive Order 13526 (E.O. 13526) "Identification and Markings"
describes the markings that should be applied to a document when it is classified.
The first of these is classification level; they also include classification authority,
reason, and declassification date as well as the requirement to indicate what
classification level applies to each portion of a document. However, subsection
1.6(f) provides that "[i]nformation assigned a level of classification under this or
predecessor orders shall be considered as classified at that level despite the
omission of other required markings." It goes on to say that the missing markings
should be applied when the information is used derivatively or reviewed for
declassification. Thus, both the statutory and Executive Order frameworks appear
to draw a very clear distinction between "misclassification" and "mismarking," the
former referring to the need to ensure that information is classified at an
appropriate and correct level and the latter referring to the need to include certain
technical markings on a document to reflect the authority for and the duration of
that classification level.

In the draft audit report, the OIG team seems to have conflated these two
principles, and the auditors have equated a technical deficiency with particular
markings on documents with "misclassification." More specifically, the audit
team appears to have relied on a finding that even a single technical deficiency in
the marking of a particular document resulted in that document as a whole being
"misclassified," and on this basis draws the broader conclusion that the
Department has "not effectively followed and administered proper classification
policies, procedures, rules, and regulations prescribed by Executive Order 13526."

We respectfully suggest that the OIG audit, taken at face value, establishes an
opposite conclusion: that the Department has effectively followed and
administered proper classification policies, procedures, rules, and regulations
prescribed by Executive Order 13526 with respect to those documents classified by
Department officials under the authority of the Department of State Classification
                                          33
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




Guide (a fundamental document that the draft audit report neither references nor
discusses). As elaborated below, fewer than half of the 34 documents reviewed by
the audit team fall into this category. We believe that the audit should be recast to
communicate this more appropriate assessment.

Our review of the 20 audit sample documents for which we were able to
obtain copies indicates that all of the documents classified by Department
officials were classified by an appropriate official at the correct level and for
the correct reasons; in that sense all of them are properly classified and not
"misclassified." Indeed, the audit itself concludes that only one of the 34 sample
documents was "over-classified".

Further, our review of audit sample documents indicates that, while there may be
one or two technically deficient marks on a number of the State-classified
documents, the vast majority of marks on those documents are in fact correctly
done and the most typical marking error occurs where the drafting officer has
failed to correctly record a portion mark - in some cases failing only to portion
mark the subject line. Of 13 documents drawn from the SAS database and clearly
classified by State Department personnel with the expectation that they conform to
the standards set forth in the Department of State Classification Guide, the only
discernible deficiency in seven of the documents was a missing portion marking on
the subject line. Similarly, two more documents omitted a single additional portion
mark beyond the subject line while the remaining documents showed similar minor
technical marking omissions. In all of these cases the classification level was
appropriate. For these reasons, contrary to the conclusion of the audit, we
believe that this statistical sampling of the State group on its face establishes a
100 percent grade on proper classification and a better than 90 percent grade
on markings. We repeat that such technical marking deficiencies are anticipated
by E.O. 13526 and implementing regulations such as 32 CFR 2001 which state
that such deficiencies will not affect the classification of a document.

In addition to this general interpretive concern, we are also concerned that this
report does not do enough to present the significant work that the Department has
done in implementing a fundamental guidance review" as required by E.O. 13526
and to publish in May 2011 a new Department of State Classification Guide
reflecting the results of that review. We welcome the acknowledgement, in a
                                         34
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




single sentence in the Executive Summary and in a single sentence at the beginning
of the "Evaluation Results" section on page 5, that "the Department had generally
adopted the classification policies, procedures, rules and regulations prescribed by
13526." But these single sentences, without any description of the significant time
and effort required to successfully reflect these processes in our guidance, and
without acknowledging that the State Department was one of the first, and remains
one of the few, agencies to appropriately implement these requirements, gives
short shrift to our efforts anq creates an overall impression that the Department
is failing where it is in (act succeeding. The report should at a minimum describe
our efforts; we believe that any review of these efforts would also show that we
deserve high marks for our work.

For this reason, we request that a revised audit report include information on page
4 following the section on "The Implementing Directive," that adequately profiles
the Department's efforts to appropriately conform its substantive classification
guidance consistent with Executive Order 13526, as this analysis - and the
Department's signature successes in this regard - directly bear on the audit
requirements contained in the statute.

Final1y, we question the validity of a statistical analysis that uses some 34
documents to establish trends and form the basis of findings regarding a statistical
pool of nearly 400,000 cables created by State Department employees in 2011,
only some 73,000 of which were classified documents. In other words, 82
percent of the cables created in 2011 by State Department employees were at
the unclassified level to start with; only 18 percent of the universe of cables
were classified at all. While we are not expert in audit methodology, and
ultimately will and must defer to OIG it is unclear that definitive broad-ranging
conclusions can be drawn regarding 73,000 documents based on such a limited
sampling.

In this regard, we note that we have excluded from our consideration the TOP
SECRET and/or SCI documents located in INR. The classification and markings
of these documents are dictated by rules and regulations drafted and controlled by
the Intelligence Community and not, as noted above, by the Department's
classification guide. We believe that it is incorrect to include these in a sampling


                                         35
                         SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




of documents used to evaluate the classification practices of the Department of
State.

We also question whether it is appropriate to include any TOP SECRET
documents in the sampling since they constitute such a miniscule fraction of the
documents created by the Department. In fact, the Department only transmitted
76 Top Secret cables in 2011. Moreover, of the 20 documents we reviewed from
the audit sample that were not TOP SECRET and/or SCI, we note that seven were
classified by non-State Department personnel (three were repeats of CIA reports,
two drafted by the Nuclear Risk Reduction Center (whose cables seem to follow a
particular and unique format different from other State cables), one by a military
officer in Baghdad and one by a Department office that uses another agency's
classification guide). This resulted in a skewed percentage when compared to the
number of documents drafted and classified by State personnel. We request that
OIG reconsider this methodological approach.

Finally, before addressing individual recommendations, the A Bureau also
generally notes that the draft audit report does not discuss or cite to the existing
division of responsibilities between A and Diplomatic Security (DS) for
compliance with executive orders governing classified national security
information. A Delegation of Responsibilities Memorandum dated July 12, 1996
issued with regard to the predecessor Executive Order governing classified
national security information (E. 0 . 12958), outlines how these responsibilities are
to be shared in the Department. This Delegation Memorandum (attached)
designated the Under Secretary for Management as the Department's Senior
Agency Official for compliance with Executive Order 12958, the Assistant
Secretary for A as responsible for the classification management provisions of the
Order, and the Assistant Secretary for Diplomatic Security (DS) to be responsible
for implementing the safeguarding provisions of the Order. The A and DS
Bureaus continue their respective work based on the delegated roles set out in this
memorandum and our comments on the draft recommendations here are made
taking that delegation memorandum into account.

Specific Additional Suggested Factual Corrections to the Draft Report:



                                         36
                         SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




1) Pages 7 and 10 of the draft report discuss the June 28, 2010 ALDAC that
   was sent to all diplomatic and consular posts notifying them of Executive
   Order 13526's changes to the national security classification information
   requirements. We note that in addition to this cable, a Department Notice
   was issued on July 1, 2010 in which the contents of the ALDAC were
   disseminated to State Department employees. Through both of these
   vehicles, Department employees were put on notice about E.O. 13526's
   obligatory training requirement. While it is true that neither of the
   "headings" on these notices identify the training as obligatory, the
   ALDAC and Department Notice both cite the training as obligatory. The
   following is text from the ALDAC and DN: "The course is obligatory
   and all original and derivative classifiers should take the course as soon
   as they reasonably can.' In addition, an ALDAC (12STATE090900)
   and Department Notice were issued in September 2012 (Required
   Training for Classifiers of National Security Information-
   http://mmsweb.a.state.gov/asp/notices/dn temp.asp?Notice Id=l7634 );
   the title of these ALDACs and DNs include the fact the training is
   required. Thus all Department employees were effectively and clearly
   notified about their obligation to comply with this training requirement.

2) On pages 8 through 11, the draft report discusses the sampling
   methodology used by the OIG audit team, including that 34 classified
   cables drafted at some point during 2011 were used as the sample and
   that 13 of the individuals who drafted the documents were interviewed.
   The report states on page 9 that none of the 13 reported having taken the
   online course. We note, as the report acknowledges that the online
   course was not available until August 2011. We also note that the draft
   audit report does not say on what date the sample documents were
   drafted in 2011, but it is likely that at least some of the documents in the
   sample were created before August of that year. If it was not possible for
   at least some of the 13 interviewed individuals to have taken the training
   before they created those classified documents it cannot be assumed that
   a lack of online training was the reason for any errors made in applying
   classification markings to the documents in the sample. Moreover, the
   draft report does note that 9 of the 13 had received live training on
                                     37
                     SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




   classification and there is no indication in the report that the content of
   the live training was incorrect or insufficient.

3) Page 11 of the draft report states that "the last update to Volume 13 of the
   FAM, 'Training and Professional Development," completed in
   December 2010, did not include PK323 as an agency mandated course".
   Because development of PK323 was not completed until August of the
   next year, as the report recognizes, this course did not exist in December
   2010 and thus could not have been included in that update to Volume 13.

4) On page 11 of the Draft Report, we suggest that the following sentence
   be revised for factual accuracy:

      Further, the last update to Volume 13 of the F AM, "Training and
      Professional Development," completed in December 2010, did not
      include PK323 as an agency mandated course, even though it is the
      Department s practice to list all mandated training courses in Volume
      13 of the FM4 because de elopment ofPK323 wa not ompleted
      unti I ugust 20 II .

5) On page 13 of the Draft Report, we suggest that the following sentence
   be revised for factual accuracy:

      Specifically, the SMART-C 4.2 application allows only original
      classific tion authoriti s to nt r th ir names and po ition · the
      appli ation does not have fields for tfie-deri ati e classifiers to enter
      their names and positions.

6) On page 14 of the Draft Report we suggest that the following paragraph
   be revised for factual accuracy:

      The SMART-C related discrepancies occurred because the SMART-C
      4.2 version does not allow all classifiers and drafters to properly mark
      classified emails. For example when using the SMART-C 4.2
      application derivative classifiers were not able to enter their names

                                     38
                     SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




            and titles because the fields were only accessible to las ifiers with
            original classification auth rity.

     7) On page 15 of the Draft Report, we suggest that the following sentence
        be revised for factual accuracy.

            The overstatement was then provided to A/GIS/IPS which then
            con ult d with INR to verify the data ubmitted. After evera1
            discussion with INR to attempt to verify the data, AlGI /rPS
            subsequently reported the data to ISOO. AlGI /IP discussed this
            data with I 00 and together they determined how be t to report the
            data for ·Y 2011.

      8) On page 16 of the Draft Report, we suggest that the following sentence
         be revised for factual accuracy.

            Further, because A/GIS/IPS did not receive report f th creation of
            any collat raJ Top Secret document from th Department's Top
             ecret ontrol Officer the sample only included classified documents
            available to A/GIS/IPS in the SAS repository which A/GIS/IPS
            maintains.

     9) Pages 23 and 24 of the draft report indicate that A/GISffPS refused to
        provide randomly selected documents to the OIG. However, on Aprill5,
        2012, A/GIS/IPS provided to the OIG lists of all cables in each ofthe
        eight strata requested by the OIG. The OIG never requested any of these
        documents from the designated points of contact within A/GIS/IPS.


Responses to Recommendations:

Recommendation 1. OIG recommends that the Bureau of Administration add
the course Classified and Sensitive But Unclassified Information: Identifying
and Marking (PK323) to the mandatory training list in Volume 13 of the
Foreign Affairs Manual to promote awareness of the training requirement.

                                        39
                        SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




      The Foreign Service Institute (FSI) should be is the lead action office for this
      recommendation. We understand that FSI, in consultation with the A
      Bureau, has initiated clearance of a new subchapter in Volume 13 of the
      Foreign Affairs Manual (F AM) section 300 covering mandatory training (13
      PAM 370) 'Mandatory Training for Classifiers ofNational Security
      Information. '

Recommendation 2. OIG recommends that the Bureau of Administration
amend the Foreign Affairs Manual to align with the language in Executive
Order 13526 that states that those who fail to receive classification training
"shall" have their classification authority suspended. ·

      The Bureau of Diplomatic Security (DS) should be the lead action office for
      this recommendation. Suspension of classification authority is a decision
      that can only be made at the appropriate levels within the Department. The
      A Bureau does not have the authority to itself suspend classification
      authority of Departmental employees. The A Bureau will coordinate with
      DS and all appropriate Departmental offices to align language in the Foreign
      Affairs Manual as needed.

Recommendation 3. OIG recommends that the Bureau of Administration, in
coordination with the Foreign Service Institute, immediately establish and
implement a process to identify Department of State classifiers who have not
complied with the classification training requirement and to take the actions
required by the amended Foreign Affairs Manual.

      FSI should be the lead action offices for this recommendation. The A Bureau
      will coordinate with FSI and other appropriate Departmental offices to
      develop a strategy for tracking classification training completion.

Recommendation 4. OIG recommends that the Bureau of Administration, in
coordination with the Bureau of Information Resource Management, replace
the Classified State Messaging Archive and Retrieval Toolset (SMART-C) 4.2
application with SMART-C 5.5 for all users of the classified email network to
promote compliance with Executive Order 13526.



                                         40
                         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




     The Bureau of Information Resource Management (IRM) should be the lead
     action office for this recommendation. We understand that IRM is currently
     deploying SMART-C 5.5. The A Bureau will continue to collaborate with
     IRM to ensure that SMART-C 5.5 meets classification marking
     requirements.

Recommendation 5. OIG recommends that the Bureau of Administration, in
coordination with the Bureau of Intelligence and Research and the Bureau of
Diplomatic Security, develop and implement a sampling methodology that
attains a representative sample of all classified documents maintained within
the Department of State for its annual self-inspection of the classification
program.

      The Bureau of Intelligence and Research (INR) and the Bureau of
      Diplomatic Security (DS) should be the lead action offices for this
      recommendation. The A Bureau is committed to ensuring the validity of all
      data provided to it by Departmental bureaus and offices in preparing the
      annual self-inspection report. However, the problems the OIG identified
      with inaccurate data on Top Secret classification actions involve issues that
      are wholly outside of A/GIS/IPS s control including the inability to directly
      access Top Secret documents controlled or maintained by other Department
      bureaus and the inability to independently verify data provided by INR.

Recommendation 6. OIG recommends that the Bureau of Administration
ensure that all Department of State bureaus that contribute data reported on
Standard Form 311 receive and comply with guidance from the National
Archives and Records Administration, Information Security Oversight Office,
that pertains to validating that the data submitted to the National Archives
and Records Administration is ·accurate.

      The Bureau of Administration concurs in part with this recommendation.
      The A Bureau will continue to provide all Department of State bureaus that
      contribute data reported on Standard Form 311 with the appropriate
      guidance from the National Archives and Records Administration's
      Information Security Oversight Office. Further, we will collaborate with
      appropriate Departmental offices to develop bureau-specifi c guidance for

                                        41
                        SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




      compiling the data required to be reported on this form. However, a senior
      official in each Department bureau or office that contributes data to the
      Department's Standard Form 3 11 should be responsible for ensuring that
      their bureau or office, which maintains that data, validate it before it is
      provided to A Bureau.

Again, we greatly appreciate the continued cooperation of the OIG and, in
particular, the audit inspection team, in the course of this audit and look forward to
continuing to work closely with the OIG on this and other matters. We also greatly
appreciate the consideration shown us in the process of providing our written
comments to the draft report. If there are any questions or additional information
needed on this matter please do not hesitate to contact the point of contact in the A
Bureau's Office of Information Programs and Services (A/GIS/IPS), Sheryl L.
Walter, Director, Office of Information Programs and Services. Ms. Walter may be
                      (b)(2)(b)(6)
reached at 202-632-                her email address is (b)(2)(b)(6)@state.gov.




                                         42
                         SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




                                                 United States Department of tale

•
 ~®.uA
 ~~ii
          !
                                                 Washington, D. C. 20520
      .

                                                 March 29, 1996


ACTION MEMORANDUM'II,                                       9605115
                    SIS,.. """

UNCLASSIFIED


TO:            The Acting Secretar y
THROUGH:       M - Richard M.      Moos~
FROM:          OS      - Eric Boswell      -1!Jj _
               A       - Patrick F. K ennedy 'fl<.

SUBJECT:       Designation of Senior Agency Official and
               Delegation of Responsibilities under Executive
               Order 12958


ISSUES FOR DECISION

    Whether to designate the Under Secretary for Management as
the senior agency official under Executive Order 12958,
·classified National Security Information," and delegate
responsibility for classification management to the Assistan t
Secretary for Administration and responsibility for
safeguarding to the Assistant Secretary for Diplomatic Securi t y.


ESSENTIAL FACTORS

    Executive Order 12958 (Tab B) became effective on Octobe r
14, 1995, replacing Executive Order 12356.   Section 5.6 of E.O.
12958 requires heads of agencies originating or handling
classified information to designate a ''senior agency official"
to direct and administer the agency's program under which
information is classified, safeguarded and declassified.

    Designation of a senior agency official at State has
usually reflected the objectives of the successive executive
orders.  E.O. 12958 aims to reduce significa ntly the amount of
information that is classified and to speed declassification.




                                      43
                          SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




The Order is also intended to promote uniform standards for
classification and declassification and their application
within federal agencies.   Th~ Drrector of the Information
Security Oversight Office, which is charged with monitoring
comp liance with the Order, favors the designation of a single
official with responsibi lity for classification,
declassification and safeguarding classified information as . the
senior agency official. For the State Department, that would
be the Under Secretary for Management since he oversees both A
and OS.

     Implementation of E.O. 1295 8 will take place as part of the
transition to a new information environment at State which
includes technical upgrading and modernization of information
systems technology, implementation of information life cycle
management and integrated information resources planning
procedures.

    While the last Order on classifi ed national security
information emphasized the protection of national security
records, E.O. 12958 focuses on the life cycle management of
classified information. An overview of Parts 1 - 3 of E . O. 12958
demonstrates the logic of placing responsibility for
management of the Department's classified information program
with the A Bureau in its capacity as information systems and
information life cycle manager. At the same time, we believe
DS should retain its traditional responsibility for
safeguarding and information security (Part 4 of E.O. 12958).

    The Order also allows for the designation of a separate
agency official to oversee special. access programs ("SAPs")
created by the Department (E.O. section 5.6(c)(l)).   Because
all SAPs created by the Department are within the purview of
either A or DS, no additional designation would be needed.
(Under other directives, INR would remain responsible for SAPs
established by the. intelligence community and other agencies.)
After the Under Secretary is designated as the senior agency
official, he would in turn delegate h{s responsibility with
respect to the Department's SAPs to DS apd A, as appropriate.

    We believe. the proposed delegations of implementation
responsibility will best achieve the goals of the President's
Order while bringing the management of national security
information at State into the new information age.




                                 44
                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




RECOMMENDATIONS
    That you designate the Under Secretary for Management as
the senior agency official · Eo~ E.O. 12958, and approve the
further delegation of responsibility for implementing the
classification management provisions of E.O. 12958 to the
Assistant Secretary for Administration and responsibility for
implementing the safeguarding provisions of E.O. 12958 to the
Assistant Secretary for Diplomatic Security.


    Approve   ~~' Q                 .          Disapprove


    If you agree with the Recommendation, that you sign the
letter to the Director of the Information Security Oversight
Office attached at Tab A.


    Approve/¥~                                 Disapprove




Attachments:
TAB A - Proposed Letter to ISOO.
TAB B - E.O. 12958 - Classified National Security Information.




        NOTE: Attachments not included by Office of Inspector General




                                     45
                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


                                                                                  Appendix C



                                                   United States Department of State
                                                   Washington, D. C. 20520

                                                        February 5, 2013




(UNCLASSIFIED when separated from attachment)

INFORMATION MEMO TO OIG -- DEPUTY INSPECTOR GENERAL
HAROLD W. GEISEL

FROM:       DSIMGTIPPD - James Weston      ~
SUBJECT: DS Comments - Draft Report Evaluation of Department of State
         Implementation of Executive Order 13526, Classified National
         Security Information

       Attached are the Bureau of Diplomatic Security's comments to the subject
draft report.

Attachment:
      As stated




               (UNCLASSIFIED when separated from attachment)




                                46
                    SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




                               UNCLASSIFIED


DS Comments on the Draft Report - Evalnation of Department of State
           Implementation of Execntive Order 13526,
            Classified National Security Information

1. (U) OIG Report: Paragraph 2 under the heading Document Markings:
   (Page 11)

   "DIG reviewed 34 documents provided by A/GIS/IPS, INR, and DS and
  found that each of these documents had been completed incorrectly. "

  (U) DS Comment (02/0112013): Overall DS concurs with the draft
  language but in many places (like the two mentioned herein) this draft
  incorrectly characterizes documents identified by DS from Top Secret (TS)
  inventories (submitted by Top Secret Control Officers (TSCOs) from other
  bureaus) as DS documents. DS did not provide any TS documents; rather,
  we provided an inventory and points of contact for OIG to use to find these
  documents.

  Please revise this entry to read:

   "DIG reviewed 34 documents provided by A/GIS/IPS and INR. "

2. (U) OIG Report: Paragraph 2 under the heading Document Markings:
   (Page 11)

  "Furthermore, a DS Top Secret draft memorandum evaluated lacked all five
  required marking elements. "

  (U) DS Comment (02/0112013): Overall DS concurs with the draft
  language but in many places this draft incorrectly characterizes documents
  identified by DS from TS inventories (submitted by Top Secret Control
  Officers (TSCOs) from other bureaus) as DS documents. DS did not
  provide any TS documents; rather, we provided an inventory and points of
  contact for OIG to use to find these documents. Please revise the entry to
  read:

   "Furthermore, an LIPM Top Secret draft memorandum evaluated lacked all
  five required marking elements. "




                               UNCLASSIFIED




                              47
                  SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED




(UNCLASSIFIED when separated from allachment)

INFORMATION MEMO TO O[G -- DEPUTY INSPECTOR GENERAL
HAROLD W. GEISEL

FROM:       DSIMGTIPPD-Jameg Weston

SUBJECT: OS Rebuttal Comments to A Bureau 's Comments ~ Draft Report
         Evaluation of Department of State Implementation of Executive Order
         13526, Classified National Security Infonnation

     Attached arc the Bureau of Diplomatic Security's rebuttal to the Bureau of
Administration 's comments to the subject draft report

Attachment:
      As slated.




               (UNCLASSlFIED when separated from attachment)




                               48
                   SENSITIVE BUT UNCLASSIFIED
                  SENSITIVE BUT UNCLASSIFIED




                                 UNCLASSIf'IEn


   DS Rebuttal Co mments on A Bureau Co mm ents to the Draft Report-
Evaluation of Department of State Implementation of Executive Order 13526,
                 Classified Natio nal Security Information

  RecollunelUlalion 2. 010 recommends thaI the Bureau of Administration
  amend Ihe Foreign Affilirs l'vfml1lal 10 align with Ihe lal1guage in
  Execulive Order 13526 that sIllIes that Ihose whofai/to receive
  classificalion Ira ining "shall" have Iheir classificalion authority
  sllspended. (page 9)

     A/(j'ISiIP.S Re.m ouse: The Bureau of Diplomatic Security (OS') should
     be Ihe lead action office for this recommendation. Suspension of
     classificaTion authority is a decision that can only be made at the
     appropriale levels within the Deparlment. The A Bureau does not have
     the authority to smpend classification authority of Departmental
     employees. The A Bureau will coordinate with DS and all appropriate
     Departmental offices to align language ill the Foreign Affairs Manllal as
     needed.

  DS Rebuttal Comments (02/0812013): DS non-concurs with the NGI SlIPS
  res>ponse (see Tab I ). AJGISITPS Incorrectly asserts that DS should be the lead
  action office for this recommendation. As referenced hy AlGI SlIPS on page 5
  orthe AlGI SlIPS respons>e, the Under Secretmy for Management is the
  Department' s> Senior Agency Official for compliance with Executive Order
  12958, the Assistant Secretary f()r A is res>ponsible for classilication
  management provisions of the Order, and the Assistant SecretaI)' for
  Diplomatic Security is responsible for implementing the safeguarding
  provisions of the Order. The OIG draft recommendation accurately captures
  that div ision of labor. Although the Under Secretary for Management would
  have the ultimate authority for granting original clas>sification authority
  granting and suspension of classification authority is clearly a function of
  classification management not of safeguarding . Suspending classification
  authority is not the same as suspending a security clearance which clearly is a
  OS function.




                                 UNCLASSII' IEn




                              49
                  SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




                                  UNCLASSIf'IEn



2. Recolllmemlatioll 5: OIG recommends that the Bureau ojAdministration,
   in coordination with the B1Ireau oJlnrelligence and Reseat'ch and the
   Burea1l of Diplomatic .s'ecurily, develop and implement a sampling
   methodology Ihal af/ains a represe,/Iative sample ofall classified dOCl/me,/ts
   maintained within the Departmenl oJSlate Jor ils annual selj-inspeclion of
   the classificalion program. (Page 9)

   AlGISIIPS Re.~pOlf.<je: The Bureau oj Inlelligence and Research (INI?) and
   the Bureau oJDiplomatlc Securily (DS) should be Ihe lead aelion offices fiJI'
   this recommendation. 77,e II Bureall is commilled to ensuring Ihe validity of
   all data provided to il by Departmenlal bureaus and offices in preparing Ihe
   amlllal se!f-invpec(ion reporl. However, the problems the GIG idenlified
   with inaccurate data on Top Secret classification actions involve issues thaI
   are wholly Olltside oj AIGISIIPS's control, inelllding the inability to directly
   access Top Secret documenls controlled or mainlained by olher Department
   bureaus and the inability to independenlly verify data provided by INR

   DS Rebuttlll Comm ents (1121081201 3): DS non-concurs with the NGISlIPS
   response (sec Tab I). NGIS/IPS incorrectly asserts thallNR and DS should
   be the lead action ot1ices fOT thIS recommendation. Given the Under Secretary
   fOT Managemenl has overall authority for ensunng compliance with
   classitication management and marking requirements and NGISIJPS perfonns
   as his implementing agent, A Bureau should lead this eftOt1. As recommended
   by the OIG , they should do so in collaboration with INR and DS. DS can
   facilitate access to any collateral Top Secret documents we possess.

   Atta chm ent: Tab -I - A Bureau Comments - EO 13526_Audit_TPS
                         Response_ 20 130204_Final.pdf




                                  UNCLASSII' IEn




                                50
                    SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


                                                                                      Appendix D



                                  United States Department of State
                                  Foreign Service instilUle

                                  George P. Shultz National Foreign Affairs Training Center
                                  Washillgtoll, D,C, 20522-./201
                                   January 7, 2013


UNCLASSIFIED
MEMORANDUM

TO:         OIG - Harold W, Geisel
                                   ' JJ
FROM:       FSIlEX - Catherine}, Russell

SUBJECT: Draft Report on Evaluation of Department of State
         Implementation of Executive Order 13526, Classified National
         Security Information

REF:        OIG Memorandum dated December 17, 2012, same subject


As a participating entity for Recommendation I in the OIG Draft Report on
Evaluation of Department of State Implementation of Executive Order 13526,
Classified National Security Information, the Foreign Service Institute (FSI)
offers the following response,

Recommendation 1: OIG recommends that the Bureau of Administration add
the course Classified and Sensitive But Unclassified Information: IdentifYing
and Marking (PK323) to the mandatory training list in Volume 13 of the
Foreign Affairs Manual to promote awareness of the training requirement

FSI, in consultation with AlGIS/IPSIPP initiated a new subchapter in 13 F AM
300 covering mandatory training (13 F AM 370) "Mandatory Training for
Classifiers of National Security Information" which was put into the EF AM
clearance process 11113/2012 with a deadline of 12/ 13/2012, and is currently
still pending completion of review from mandatory clearers,

cc: AlEX/MGT - Joseph McGuire




                              UNCLASSIFIED




                            51
                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




Fro m : SMART Core
Sent: Th ursday, Feb rua ry 07, 20 13 9: 15 AM
To: Hetland, Arline R
Cc: McGuire, Joseph H; Russell, Catherine J; OShima, Wayne A
Subject: FSfs Follow up Response to N GlS's Proposed change re Eva luatio n of Department of State
Implementation of Executive Order 13526, dassified Nationa l Security Information

                                                 UNCLASSIFIED

MRN:                                                       13 MDA 3856
DatelDTG:                                                  Feb 07, 2013 f 071414Z FEB 13
From:                                                      Hetland, Arline R
Action:                                                    Meade, Regina (OIG) ROUTINE; Irving, William S
                                                           (O IG) ROUTINE', Brown, Norman P (OIG) ROUTINE;
                                                           Klemstine, E\le~n (O IG) ROUTINE
For Add ressee(s) Onl y
E,O.:                                                      13526
TAGS:                                                      AS IG , AFSI
Subject:                                                   FSI's Follow up Res ponse to .lVGI$'s Proposed
                                                           change re Evaluati on of De partment of State
                                                           Implementa tion of Executive Order 13526,
                                                           Classified National Security Information


Ut'low art'   FSI '~   rt'!!ponseJ to fVG IS's propusl'd dlange in action 10 Recom l11 t' ndati ons I and J:

R l'co mlll l~ld at i on
                     1. OIG rl'CUllImends th ~ llh e Bur e~u of Admini slr~tion ~dd th e co ur se CJ~ ss iIi L'll
~nd  &O nsiti,'e But Uncl ~ssi lil'll Inform atio n: Idenlif)'in g ~ nd " "I:lr kin g (pK323) to t he m~ndalory
training lisl in Vulume 13 of t he roreign Affairs Manual to promote Ilwart'nL'SS ufth e tr~ining
requirl'llIl'nt.

The Foreign Service Inslitute (FSI) sho uld be is the lead action office for th is recomm Cl'l dation. We
undenbnd th<lI I' SI, in cOf1l!uitation wi th the A CurC.1U, ha s initiated clearan ce of a new ~ ubcha pter in
Volum e 13 of the ForeignAffairs Manual (F N vl) section 300 coverin g mandatory tra ining ( 13 r M ·I 370)
'"Mandatory Train in g for Classifi Cll! of Nali onal Security Infonnation."

FSI di sagr ('('s wilh th (' propoSl'd changl'. It is our opinion that th (' r('('omm('nda lion IX' ch angl'd to
thl' following as A Bur('au should rl'main thl' program omc('.

Recununendation 1, OIG rt'CUmmends thallhe Bureau uf Aliminisirat ion. wor kin g ,,·ith t hi.'
Fun ;gn Sl'T,"jW Instil ule. ensur n Ihal flW Ihe w urse C lassi lil-'li and Se nsitiw But Und ass ifiell
Info rm alion: Identi fyi ng and Ma rkin g (PKJ2J) is alilled 10 Ihe mandat ory Iraining list in Volum e
13 of th (' F.}reign AffilirYl Manuulto pro mote 3war('nl.'SS of th e training requirl'ml'nt.



Rl'cum m end ation 3. O IG r~llIml'nli s thallhe Bureau uf Aliminisirat ion. in worll in ation wilh Ihe
Fun~gn Sl'n·jt"t' lnstitule, immtod iat cl y establish anll im plt'm(>nl a prucess 10 illenlify Dl'p.ulmt'nl of
Stat e d~ssilicrs whu ha"e nut COlli plied wilh th e classilication trainin g rl'quiremenl and 10 I~ke Ihe
actions rl'quired by th e aml'nded Foreign AffairYl Munu«l.




                                          52
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED




FSI should be the lead action offices for thi$ reoommend.:Jtion. The A Bureau will coord inate w ith FSI and
other appropriate Departmental offices to develop a strategy lor tracking e lassilication tra inin g
comp letion.

1'SI dol'S nOI agree with Ihis change. FSI does no tlr ac k O) mplian ct for a ny mandalor y Irainin g;
we do nOI dtlerm in e w ho should lake m a nd alory co nr:S('s an d art nOI rt s ponsible for Iht penallil'S if
som('(l nt does nOlla ke Ihe m an dalory olTerin g. 1'SI m akes Ihis dear as we ass ist in cour ses, whl't her
cla!>Sruom or di stlmce ll'llrnin g. !\Iand lil ory l e~dl'rsh i p is ~ n en mpl l' - "' SI does prol'idl' l he dliia to
HR on w hi ch gon-rn ml'n! elllpl o~'ees lm ve hlkl'n tlll' cou rse. lmd HR has bl'l'n ab le to h~,'c !hll!
" hil" ag~ illst the hrgl'll'll grou p5 with ~u pl'n' i~ory skill COtll'S, A BUrl'llU shoultll uok ~t exp lorin g a
COlli prl'llensh'l' approach thllt tir sl allows Ihl~n 10 dl't l'rlll inl' sp!.'Cilicall y who has 10 lakl' I his
mand alo ry tnining; lllld Ihl'n sci up II S)"sll'lII 10 bI' abll' 10 Irllck il . It is nol FSl's r espons ibilily.
nor do we hal-e the Cllp ac il )" 10 COlli parI' w ho hilS Illkl'n il llgllin sl lhl' " lllr gl'l 3ndil' ncl'''.
Add ili omill y, I hl' Dl' pllrlml'n t's DirN10r Gml'r al lind Burellll of IInm an R l'So nrn'S hano 10
dl'll'rmin e wha t polk)" and im pll'lIIl'ntation act io n ~ mi ght bl' m adl' avail abll' for Ihose who do not
cOlllpl r ·

FS I does send infornHll ion on di fl.'l: I-hire e mployl'l'S whu hllnl l"O mpl l~ed PKJ2J thruugh the
ell"CI runi e interfal"e :nlll Ihe infoTllmlion ends up in Ih e HR Knuwled ge Cmll'!". The A Burea n ca n
work wilh Ih e Burean ofHum llll Resonrcl'S (HRIE.\:) to dl'1-clop reports th llt III l'Sh with dula in Ihe
Know ll'llge Cl'nll.... ]iSI is also happy 10 produce (Ilrarll'rly reporl s 10 Ihl' A Burl'au on w ho has
COlli pll'll'll Ihl' l"UUrSI' so I hl')" can use Ihal 10 compare agllinsl whol'n... I he Illrgell'll pt'r su nlll'l an'.

1'SI a l~o belie"es that Ihe Department may want 10 broaden the range ofw hal courses might ml'Ct
COlli pliance, since I here is an onlin e S!\lART dislance learnin g coursc th ai also deals with
cla!>Sitication.




                                                (b) (6)

Draned By:                         FSINFATC
Relea sed By:                      FSINFATC
Info:                              McGuire, Joseph H ROUTINE; Russett , Catherine J ROUTINE, OShima,
                                   Wayrte A ROunN£

Disseminatio n Rule:               Released COpy

                                                 UNCLASSIFIED




                                        53
                            SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


                                                                                      Appendix E

                                                  United States Department of State

                                                   Washington, D.C. 20520


UNCLASSIFIED                                        December 2 1, 2012

INFORMATION MEMORANDUM

TO:         OIG - Evelyn R. Klemstine, Assistant Inspector General for Audits

FROM:       INR - Daniel H. Rubinstein,   PDAS\~
SUBJECT: Draft OIG Report on Evaluation ofDepartment ofState
         Implementation ofExecutive Order 13526, Classified National
         Security Information


Although INR was only a "cc" recipient of the draft OIG Report on Evaluation of
Department ofState Implementation ofExecutive Order 13526, Classified
National Security Information, INR requests that the following two points be
clarified, and that related corrections be considered:
   • p.5 ·· " ... marking errors occurred because the Department had not
     effectively administered mandatory [classification1training . . ." In the case
     of INR, it was a software issue that resulted in the incorrect markings, not
     lack of training. The necessary upgrades occurred after the audit. The
     content on p.1 " ... and the Bureau of Intelligence and Research had not
     effectively followed and administered proper classification policies,
     procedures, rules and regulations .. ." and on p.8 "All of the INR SCI
     documents evaluated did not include the names and titles of the classifiers."
     could also be amended to reflect the cause of the problem.
   • p.23 ·· As drafted, the report notes that INR only provided "frames"
     differentiated by classification level, and not original v. derivative. Both
     lists provided by INR were for material containing SCI. As INR does not
     produce original SCI, all the documents listed were, by default, derivative.




                                UNCLASSIFIED




                                 54
                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED


                                                                                            Appendix F


                                                 United States Department of State

                                                     If/as/uilgIOIl.   D.l'.   20520




                                                                         February 4, 2013



MEMORANDUM

TO:         Evelyn R. K1emstine, Assistant Inspection for Audits
                                                 ('

FROM:       IRM/BMP/SPO/SPD - Robert Glunt       ~

SUBJECT: Draft Report - Evaluation of Department of State Implementation of
          Executive Order 13526, Classified National Security Information



IRM replies without comment to the subject report.




                                55
                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



                                                                                    Appendix G

        Office of Inspector General Replies to Bureau of Administration
                             Additional Comments

       In its February 7, 2013, response to the draft report (see Appendix B), the Bureau of
Administration (A Bureau) provided comments that did not relate directly to the
recommendations. As appropriate, the Office of Inspector General (OIG) incorporated those
technical comments that it could validate into the report. The A Bureau’s principal comments
and OIG’s replies are as presented.

                              Reducing Over-Classification Act

A Bureau Comments (page 1, paragraph 2, and page 2, paragraphs 2-4)

        The A Bureau questioned “the extent to which this audit captures the purpose of the audit
requirement of the Reducing Over-Classification Act.” The A Bureau also stated that OIG
“seems to have conflated these two principles [pertaining to misclassification and mismarking],
and the auditors have equated a technical deficiency with particular markings on documents with
‘misclassification”; that OIG “appears to have relied on a finding that even a single technical
deficiency in the marking of a particular document resulted in that document as a whole being
“misclassified”; and that “on this basis draws the broader conclusion that the Department has
‘not effectively followed and administered proper classification policies, procedures, rules, and
regulations prescribed by Executive Order 13526.’”

OIG Reply

        OIG made changes to the sections “Executive Summary” and “Finding A. National
Security Information Classification Needs Improvement” so that the reported findings more
clearly addressed the overclassification condition as reflected in this audit.

                            Document Classification and Marking

A Bureau Comments (page 3, paragraph 1)

        The A Bureau stated that its review of the 20 audit sample documents for which it was
able to obtain copies indicated that all of the documents classified by Department officials were
“classified by an appropriate official at the correct level and for the correct reasons; in that
sense all of them are properly classified and not “misclassified.” The A Bureau further stated
that OIG’s audit “itself concludes that only one of the 34 sample documents was ‘over-
classified.’”




                                         56
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


OIG Reply

        OIG did not state that the documents were misclassified. OIG stated that the 34 sample
documents lacked one of the five document marking requirements and had document marking
errors that did not comply with Executive Order 13526.

A Bureau Comments (page 3, paragraph 3)

        The A Bureau stated in its review of 20 documents from OIG’s audit sample that “the
vast majority of marks on those documents are in fact correctly done and the most typical
marking error occurs where the drafting officer has failed to correctly record a portion mark” and
sometimes failed “only to portion mark the subject line.” The A Bureau further stated that of the
13 documents “drawn from the SAS [State Archive System] database and clearly classified by
State Department personnel with the expectation that they conform to standards set forth in the
Department of State Classification Guide, the only discernible deficiency in seven of the
documents was a missing portion marking on the subject line. Similarly, two more documents
omitted a single additional portion mark beyond the subject line.” “Similarly,” according to the
A Bureau, “two more documents omitted a single additional portion mark beyond the subject
line while the remaining documents showed similar minor technical marking omissions. In all of
these cases the classification level was appropriate. For these reasons, contrary to the
conclusion of the audit, we believe that this statistical sampling of the State group on its
face establishes a 100 percent grade on proper classification and a better than 90 percent
grade on markings. We repeat that such technical marking deficiencies are anticipated by E.O.
[Executive Order] 13526 and implementing regulations such as 32 CFR 2001, which state that
such deficiencies will not affect the classification of a document.”

OIG Reply

        The audit was concerned not only with proper classification of documents but also with
checking the five marking elements required for classified documents: overall classification
markings, derived from information, classified by information, duration of classification, and
portion markings. These elements are the same elements tested during the Department’s self-
inspection, and each has an important purpose. For example, portion marking is integral to the
classification system because such markings enable efficiencies in precise, consistent, and
accurate derivative classification decisions. OIG underscored the importance of these five
elements, stating in the audit report the following (see the section “Improper Classification of
Document Marking Errors Adversely Affect National Security” in Finding A of the report):

       [D]ocument marking errors may cause confusion on how to share national
       security information or may negatively affect the dissemination of information
       within the Federal Government and with State, local, and tribal entities and with
       the private sector. . . . Further, the absence of portion markings may contribute to
       the inadvertent compromise of classified information and/or inappropriate
       application of classification. Additionally, if an author of a document is
       unknown, later original or derivative classifiers would not have the opportunity to
       discuss the content or classification level with the author. Lastly, when
                                                  57
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       information regarding declassification is omitted, documents may be classified for
       longer periods of time than necessary.

        Moreover, OIG sampled 20 documents at the A Bureau, with each document
representing a sampling unit irrespective of the number of pages a document contained.
The method OIG used for testing determined the percentage of time a certain error was
found in each document reviewed in the audit. Consequently, if, for example, OIG found
on the first of the 20 documents sampled and reviewed a portion marking error for each
page of a 10-page document, this was counted as only 1 anomaly and not as 10. As
previously indicated, the sampling units were documents and not pages. This method of
tallying is standard in the auditing community when performing this type of testing.

        Additionally, OIG used guidance from Executive Order 13526 and the National Archives
and Records Administration, Information Security Oversight Office (ISOO), implementing
directive to perform its testing. More specifically, the Executive Order “prescribes a uniform
system for classifying, safeguarding, and declassifying national security information,” and the
ISOO Directive “sets forth guidance to agencies on original and derivative classification of
classified national security information.” Consequently, these are the standards with which the
Department must comply, and they therefore supersede any part of the Department of State
Classification Guide that may be at variance with them. Finally, because of impediments
explained in the Scope and Methodology section (see section “Selection of Samples” in
Appendix A), OIG was precluded from selecting a statistical sample despite its efforts to do so.

                                          Audit Sample

A Bureau Comments (page 4, paragraph 3)

       The A Bureau questioned “the validity of a statistical analysis that uses some 34
documents to establish trends and form the basis of findings regarding a statistical pool of nearly
400,000 telegrams created by State Department employees in 2011, only some 73,000 of which
were classified documents.” Based on this analysis, according to the A Bureau, “82 percent of
the cables [telegrams] created in 2011 by State Department employees were at the
unclassified level to start with; only 18 percent of the universe of cables were classified at
all.” The A Bureau added, “It is unclear that the definitive broad-ranging conclusion can be
drawn regarding 73,000 documents based on such a limited sampling.”

OIG Reply

         The work OIG performed would be more properly described as data analysis rather than
statistical analysis, because statistical analysis more fittingly refers to the analysis of data
gathered via statistical sampling. However, because of impediments discussed in the Scope and
Methodology section (Appendix A), OIG was precluded from selecting a statistical sample and
was therefore unable to make statistical projections to the universe. Rendering the sample
nonstatistical also made the size of the sample moot because a nonstatistical sample cannot be
projected to the universe regardless of its size. However, there is no reason to believe that taking
a much larger sample or even performing a complete enumeration of the universe would not
                                          58
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

result in additional discrepancies. If such additional testing had been performed, the discrepancy
rates for the different attributes tested might have decreased, increased, or possibly remained the
same, but more discrepancies would undoubtedly have been identified.

A Bureau Comments (page 4, paragraph 4, and page 5, paragraph 1)

        The A Bureau stated that it had excluded from its consideration the Top Secret and/or
Sensitive Compartmented Information (SCI) documents located in the Bureau of Intelligence and
Research because the classification and markings “are dictated by rules and regulations drafted
and controlled by the Intelligence Community and not, as [OIG] noted above, by the
Department’s classification guide.” The A Bureau believed it was “incorrect to include these in
a sampling of documents used to evaluate the classification practices of the Department of
State.”

OIG Reply

        When reviewing the documents, OIG used guidance from Executive Order 13526 and
ISOO as criteria, as both the Intelligence Community and the Department’s classification guide
must comply with the Executive order and the ISOO guidance derived from the Executive order.
Moreover, the Executive order and the ISOO implementing directive require “representative
samples” for the annual self-inspections. Performing the self-inspection without including Top
Secret documents would undoubtedly not have satisfied the requirement for the use of
“representative samples.”

A Bureau Comments (page 5, paragraph 1)

        The A Bureau questioned whether it was appropriate to include “any TOP SECRET
documents in the sampling since they constitute such a miniscule fraction of the documents
created by the Department.” Specifically, “[T]he Department only transmitted 76 Top Secret
cables [telegrams] in 2011.” The A Bureau then noted that of the 20 documents it had reviewed
from the audit sample that were not Top Secret and/or SCI, seven were classified by non-State
Department personnel. The A Bureau described how and by whom the seven were classified,
indicating that these methods “resulted in a skewed percentage when compared to the number of
documents drafted and classified by State personnel.” The A Bureau requested that OIG
“reconsider this methodological approach.”

OIG Reply

        As previously indicated, the requirement for “representative samples” in performing the
self-inspection imposed by Executive Order 13526 and the ISOO guidance required the
examination of Top Secret documents—the highest classification level. OIG specifically
requested only Department-drafted documents and was advised that the list sampled from
represented only Department-created documents. In addition, for the seven documents
examined, four did not have names or titles of the classifiers or drafters, the classifier for one
document indicated during the interview that he was in fact a Department employee, and the

                                          59
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

remaining two documents listed a classifier who had a Department email account and telephone
number in the Department directory.

A Bureau Comments (page 6, paragraph2)

        The A Bureau stated that OIG’s sampling methodology used by OIG included 34
classified telegrams drafted during 2011 used as the sample and that 13 of the individuals who
had drafted the documents had been interviewed. The A Bureau also stated that OIG’s report
stated that none of the 13 individuals reported that they had taken the online course PK323 but
noted that the online course was not available until August 2011.

        The A Bureau also stated that OIG’s draft report does not mention the date in 2011 on
which the sample documents were drafted, but that it was “likely that at least some of the
documents in the sample were created before August of that year.” The A Bureau further stated,
“If it was not possible for at least some of the 13 interviewed individuals to have taken the
training before they created those classified documents, it cannot be assumed that a lack of
online training was the reason for any errors made in applying classification markings to the
documents in the sample. Moreover, the draft report does note that 9 of the 13 had received live
training on classification and there is no indication in the report that the content of the live
training was incorrect or insufficient.”

OIG Reply

        Of the 34 classified documents evaluated by OIG, 21 (62 percent) were created prior to
August 19, 2011, the date the online course (PK323) became available to Department classifiers.
One document was missing a date, while the remaining 12 documents were created after the
course was available. However, Executive Order 13526 became effective on June 27, 2010, 6
months after it was issued. Consequently, training should have begun by that time.
Additionally, in the draft report OIG stated that document marking errors occurred because the
Department had not effectively administered mandatory training for all Department employees
with authority to classify national security information, not simply because the classifiers had not
taken the online training course. Further, officials from the A Bureau’s Global Information
Services, Office of Information Programs and Services (A/GIS/IPS), were required to establish
and implement a training program designed to meet Executive Order 13526 requirements. The
online training program developed by the Department was created to meet all of the new
requirements of this Executive Order. OIG did not evaluate the adequacy of the training
personnel received at post.

A Bureau Comments (page 8, paragraph 4)

        The A Bureau stated that OIG’s draft report (pages 23 and 24) “indicate[d] that
A/GIS/IPS refused to provide randomly selected documents to the OIG.” The A Bureau further
stated: “However, on April 15, 2012, A/GIS/IPS provided to the OIG lists of all telegrams in
each of the eight strata requested by the OIG. The OIG never requested any of these documents
from the designated points of contact within A/GIS/IPS.”

                                          60
                              SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


OIG Reply

        At an April 6, 2012 meeting, A/GIS/IPS agreed to provide OIG with the necessary
document lists to identify its sample. OIG received the lists from A/GIS/IPS on April 11, 2012.
Once OIG completed the audit procedures to identify its random sample on April 27, 2012, OIG
searched the SAS database for the 40 documents.1 On May 9, 2012, OIG made a request to
A/GIS/IPS for 22 selected sample documents for review that were not retrievable in SAS. While
certain documents were provided, A/GIS/IPS informed OIG that five documents could not be
provided because of special handling tags.

              Division of Responsibility for Implementing Executive Order 13526

A Bureau Comment (page 5, paragraph 3) and OIG Reply

        The A Bureau noted that OIG’s draft report did not “discuss or cite to the existing
division of responsibilities between” the A Bureau and DS “for compliance with executive
orders governing classified national security information.” The A Bureau cited the July 12,
1996, Delegation of Responsibilities Memorandum, which pertained to the predecessor
Executive Order 12958. This memorandum governed classified national security information
and outlined how the responsibilities were to be shared in the Department.

OIG Reply

        OIG’s draft report specifically addressed the division of responsibility within the
Department with regard to implementation of Executive Order 13526, as detailed in the
Background section of the report. The information on the delegation of responsibilities shared in
the Department was taken directly from the Foreign Affairs Manual, 5 FAM 480, dated June 16,
2011. OIG notes that according to the FAM, the division of responsibilities between the A
Bureau and DS has essentially not changed under Executive Order 13526. The FAM, 5 FAM
480, also supersedes the July 12, 1996, Delegation of Responsibilities Memorandum cited by the
A Bureau in its comments.




1
 As part of the judgmental sampling process, OIG reviewed 20 of the 40 documents randomly selected from the
confidential and secret sample of the State Archive System.
                                             61
                                 SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Major Contributors to This Report

Regina Meade, Director
Security and Intelligence Division
Office of Audits

William S. Irving, Audit Manager
Security and Intelligence Division
Office of Audits

Ernest Arciello, Statistician
Audit Operations
Office of Audits

Peter Antico, Senior Management Analyst
Security and Intelligence Division
Office of Audits

Laura G. Miller, Management Analyst
Security and Intelligence Division
Office of Audits

Kathleen Sedney, Auditor
Contracts and Grants Division
Office of Audits

Ryan Hartong, Management Analyst
Security and Intelligence Division
Office of Audits

Brian K. Stratton, Auditor
Human Capital and Infrastructure Division
Office of Audits

Christopher Yu, Management Analyst
Security and Intelligence Division
Office of Audits




                                            62
                                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
